<html>
<title> - SELF-DRIVING CARS: ROAD TO DEPLOYMENT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                 SELF-DRIVING CARS: ROAD TO DEPLOYMENT

=======================================================================

                                HEARING

                               BEFORE THE

        SUBCOMMITTEE ON DIGITAL COMMERCE AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 14, 2017

                               __________

                            Serial No. 115-6
                            
                            
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]                         


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov                                               
                        
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-034                      WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="583f2837183b2d2b2c303d3428763b373576">[email&#160;protected]</a>                     
                    
                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                       Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, California
MARKWAYNE MULLIN, Oklahoma           RAUL RUIZ, California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
        
        Subcommittee on Digital Commerce and Consumer Protection

                         ROBERT E. LATTA, Ohio
                                 Chairman
                                     JANICE D. SCHAKOWSKY, Illinois
                                       Ranking Member
GREGG HARPER, Mississippi            BEN RAY LUJAN, New Mexico
  Vice Chairman                      YVETTE D. CLARKE, New York
FRED UPTON, Michigan                 TONY CARDENAS, California
MICHAEL C. BURGESS, Texas            DEBBIE DINGELL, Michigan
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
DAVID B. McKINLEY, West Virgina      JOSEPH P. KENNEDY, III, 
ADAM KINZINGER, Illinois                 Massachusetts
GUS M. BILIRAKIS, Florida            GENE GREEN, Texas
LARRY BUCSHON, Indiana               FRANK PALLONE, Jr., New Jersey (ex 
MARKWAYNE MULLIN, Oklahoma               officio)
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
GREG WALDEN, Oregon (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, opening statement.....................................     1
    Prepared statement...........................................     3
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     5
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, prepared statement.............................    95
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, prepared statement.....................................    96

                               Witnesses

Michael F. Ableson, Vice President of Global Strategy, General 
  Motors.........................................................     8
    Prepared statement...........................................    11
    Answers to submitted questions...............................   124
Anders Karrberg, Vice President of Government Affairs, Volvo Car 
  Group..........................................................    18
    Prepared statement...........................................    20
    Answers to submitted questions \1\...........................   129
Nidhi Kalra, Co-Director and Senior Information Scientist, Rand 
  Center for Decision Making Under Uncertainty...................    31
    Prepared statement...........................................    33
    Answers to submitted questions \2\...........................   133
Gill Pratt, Executive Technical Advisor and CEO, Toyota Research 
  Institute......................................................    49
    Prepared statement...........................................    51
    Answers to submitted questions...............................   135
Joseph Okpaku, Vice President of Public Policy, Lyft.............    66
    Prepared statement...........................................    68
    Answers to submitted questions...............................   142

                          Submitted Materials

Statement of the National Association of Mutual Insurance 
  Companies......................................................    97
Statement of the National Council on Disability..................   101
Statement of Ford Motor Company..................................   104
Statement of Global Automakers...................................   105
Statement of the Auto Care Association...........................   109
Statement of the Electronic Privacy Information Center...........   110
Statement of Competitive Carriers Association....................   113
Statement of Advocates for Highway and Auto Safety...............   115
Statement of Securing America's Future Energy....................   119

----------
\1\ Mr. Karrberg did not submit a response to questions for the 
  record.
\2\ Dr. Kalra did not submit a response to questions for the 
  record.

 
                 SELF-DRIVING CARS: ROAD TO DEPLOYMENT

                              ----------                              


                       TUESDAY, FEBRUARY 14, 2016

                  House of Representatives,
     Subcommittee on Digital Commerce and Consumer 
                                        Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:15 a.m., in 
room 2123 Rayburn House Office Building, Hon. Robert Latta 
(chairman of the subcommittee) presiding.
    Present: Representatives Latta, Harper, Burgess, Upton, 
Lance, Guthrie, McKinley, Kinzinger, Bilirakis, Bucshon, 
Mullin, Walters, Costello, Schakowsky, Lujan, Clarke, Cardenas, 
Dingell, Matsui, Welch, Kennedy, Green, and Pallone (ex 
officio).
    Staff present: Mike Bloomquist, Deputy Staff Director; 
Karen Christian, General Counsel; Paige Decker, Executive 
Assistant & Committee Clerk; Blair Ellis, Digital Coordinator/
Press Secretary; Melissa Froelich, Counsel, Digital Commerce 
and Consumer Protection; Giulia Giannangeli, Legislative Clerk, 
Digital Commerce and Consumer Protection/Environment; Katie 
McKeough, Press Assistant; Alex Miller, Video Production Aide 
and Press Assistant; Paul Nagle, Chief Counsel, Digital 
Commerce and Consumer Protection; Mark Ratner, Policy 
Coordinator; Dan Schneider, Press Secretary; Olivia Trusty, 
Professional Staff Member, Digital Commerce and Consumer 
Protection; Madeline Vey, Policy Coordinator, Digital Commerce 
and Consumer Protection; Gregory Watson, Legislative Clerk, 
Communications and Technology; Everett Winnick, Director of 
Information Technology; Michelle Ash, Minority Chief Counsel, 
Digital Commerce and Consumer Protection; Jeff Carroll, 
Minority Staff Director; Lisa Goldman, Minority Counsel; 
Caroline Paris-Behr, Minority Policy Analyst; Tim Robinson, 
Minority Chief Counsel; Matt Schumacher, Minority Press 
Assistant.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Latta. Good morning. I'd like to call the subcommittee 
on Digital Commerce and Consumer Protection to order, and the 
Chair now recognizes himself for 5 minutes for an opening 
statement.
    Again, good morning and welcome to the first hearing of the 
115th Congress for the Digital Commerce and Consumer Protection 
subcommittee. It is a pleasure to be here with you all today.
    Before we get started, I want to thank Chairman Burgess and 
Vice Chairman Lance for all the hard work they did in the last 
Congress here on the subcommittee. I also want to recognize the 
new Vice Chairman of this subcommittee, the gentleman from 
Mississippi, and glad to have you board. Also look forward to 
working to advance an innovation agenda that creates jobs and 
puts consumers first, and I also want to recognize the 
gentlelady from Illinois, our Ranking Member. I appreciate 
we're going to be working with her this Congress. Also look 
forward to working in a bipartisan fashion to grow the economy 
and protect consumers.
    Finally, as Chairman, I look forward to working with all 
the members of the subcommittee to continue exploring areas in 
the emerging digital economy that are creating new 
opportunities for economic growth, job creation, and consumer 
empowerment in America.
    I recently had an opportunity to visit the auto show here 
in Washington, DC. The showroom floors were filled with 
vehicles equipped with innovative features and newly designed 
systems that promise to enhance the safety, mobility, and 
convenience of our drivers' experiences.
    I was also greatly impressed with the creativity and 
ingenuity of the auto industry to build the vehicles that we 
could only dream about just a short time ago. The technological 
advancements in this sector are nothing short of amazing.
    Today, this subcommittee will continue its focus on self-
driving vehicles and their potential to completely transform 
our transportation system. We'll hear about what testing is 
happening, what testing needs to happen, and what the time 
frame is for that deployment.
    In 2015, there were over 35,000 lives tragically lost on 
our nation's highways. Over 1,000 of these fatalities were in 
my home state of Ohio. Based on early estimates, traffic 
fatalities in 2016 are even going to be higher. Unfortunately, 
we also know that human error accounts for over 90 percent of 
all the traffic accidents. These are startling statistics; 
however, the emergence of automated vehicle technology and 
growing investments into fully self-driving vehicles promises a 
significantly reduced lives lost on the roads by decreasing 
traffic accidents making our roadways safer for all users.
    As the auto industry works to make self-driving vehicles a 
reality, adequately testing these vehicles will be critical to 
refining their systems for commercial deployment and gaining 
consumer confidence that are safety.
    Today, conventional vehicles undergo a range of tests in 
laboratories or proving grounds and on public roads before they 
are sold to consumers. In each of these settings, vehicle 
engineers and professional test drivers go through detailed 
assessments and inspections of vehicles to insure compliance 
with crashworthiness and crash avoidance standards, and to 
verify a vehicle's overall structural integrity. Cars are put 
through thousands, sometimes hundreds of thousands of miles of 
testing to insure that once the vehicle is on a dealer's lot it 
is safe for consumers and their families.
    Unlike conventional vehicles, fully self-driving vehicles 
are intended to operate without the input or control of human 
drivers. No longer will manufacturing be able to rely on 
drivers to take corrective action in the event of an unexpected 
system failure, or an unplanned roadway activity. Flexible and 
unregimented tests will be essential to certifying the safety 
and reliability of the technology empowering self-driving 
vehicles.
    As we discuss this testing of self-driving vehicles today 
and steps to commercial deployment, I look forward to learning 
from the witnesses about how auto makers and other entities are 
testing these technologies in plans for future deployment.
    I also look forward to hearing about how the existing 
testing environment can be improved to facilitate the 
innovation and development of potentially life-saving automated 
vehicle technology in this country.
    Ohio's Transportation Research Center recently announced a 
significant investment into a Smart Mobility Advanced Research 
and Test Center in East Liberty, Ohio to allow for the testing 
of self-driving vehicles across thousands of acres of road 
courses. We need to understand how to insure more states take 
positive steps to move testing forward and to insure that 
testing doesn't become a roadblock to innovation.
    Robust vehicle testing is essential to the successful and 
safe deployment of self-driving vehicles. Testing will not only 
provide auto makers and other entities with the data they need 
to make these vehicles as safe as possible, but it will help 
build consumer confidence in this technology which is central 
to realizing the future benefits of self-driving vehicles.
    I thank the witnesses for taking the time to be with us 
today and I look forward to a thoughtful and engaging 
discussion. And at this time, I have about a minute left, and 
is there anyone on our side that would like to claim the 
minute? The Chair recognizes the Vice Chairman.
    [The statement of Mr. Latta follows:]

               Prepared statement of Hon. Robert E. Latta

    Good morning and welcome to the first hearing of the 115th 
Congress for the Digital Commerce and Consumer Protection 
Subcommittee. It is a pleasure to be here with you today. 
Before we get started, I want to thank Chairman Burgess and 
Vice Chairman Lance for all the good work they did last 
Congress. I also want to recognize the new Vice Chairman of 
this Subcommittee, Gregg Harper. I look forward to working 
together to advance an innovation agenda that creates jobs and 
puts consumers first. I also want to recognize Ranking Member 
Schakowsky. I look forward to working in a bipartisan fashion 
to grow the economy and protect consumers. Finally, as 
Chairman, I look forward to working with all members of this 
Subcommittee to continue exploring areas in the emerging 
digital economy that are creating new opportunities for 
economic growth, job creation, and consumer empowerment in 
America.
    I recently had the opportunity to visit the Auto Show here 
in Washington, DC. The showroom floors were filled with 
vehicles equipped with innovative features and newly-designed 
systems that promise to enhance the safety, mobility, and 
convenience of our driving experiences. I was greatly impressed 
with the creativity and ingenuity of the auto industry to build 
vehicles that we could only dream about a short time ago. The 
technology advancements in this sector are nothing short of 
amazing.
    Today, this Subcommittee will continue its focus on self-
driving vehicles and their potential to completely transform 
our transportation system. We will hear about what testing is 
happening, what testing needs to happen, and what is the 
timeframe to deployment.
    In 2015, there were over 35,000 lives tragically lost on 
our nation's roadways. Over 1,000 of those fatalities were in 
my home State of Ohio. Based on early estimates, traffic 
fatalities in 2016 are likely even higher. Unfortunately, we 
also know that human error accounts for over 90 percent of all 
traffic accidents. These are startling statistics; however, the 
emergence of automated vehicle technology and growing 
investments into fully self-driving vehicles promises to 
significantly reduce lives lost on our roads by decreasing 
traffic accidents and making roadways safer for all users.
    As the auto industry works to make self-driving vehicles a 
reality, adequately testing these vehicles will be critical to 
refining their systems for commercial deployment and gaining 
consumer confidence that they are safe. Today, conventional 
vehicles undergo a range of tests in laboratories, on proving 
grounds, and on public roads before they are sold to consumers. 
In each of these settings, vehicle engineers and professional 
test-drivers go through detailed assessments and inspections of 
vehicles to ensure compliance with crashworthiness and crash 
avoidance standards, and to verify a vehicle's overall 
structural integrity. Cars are put through thousands--and 
sometimes hundreds of thousands--of miles of testing to ensure 
that once the vehicle is on a dealer's lot, it is safe for 
consumers and their families.
    Unlike conventional vehicles, fully self-driving vehicles 
are intended to operate without the input or control of a human 
driver. No longer will manufacturers be able to rely on drivers 
to take corrective action in the event of an unexpected system 
failure or any unplanned roadway activity. Flexible and 
unregimented testing will be essential to certifying the safety 
and reliability of the technology powering self-driving 
vehicles.
    As we discuss the testing of self-driving vehicles today 
and steps to commercial deployment, I look forward to learning 
from witnesses about how automakers and other entities are 
testing these technologies and plans for future deployment. I 
also look forward to hearing about how the existing testing 
environment can be improved to facilitate the innovation and 
development of potentially life-saving automated vehicle 
technology in this country. Ohio's Transportation Research 
Center recently announced a significant investment into its 
Smart Mobility Advanced Research and Test Center in East 
Liberty, Ohio to allow for the testing of self-driving vehicles 
across thousands of acres of road courses. We need to 
understand how to ensure more states take positive steps to 
move testing forward and to ensure that testing doesn't become 
a roadblock to innovation.
    Robust vehicle testing is essential to the successful and 
safe deployment of self-driving vehicles. Testing will not only 
provide automakers and other entities with the data they need 
to make these vehicles as safe as possible, but it will help 
build consumer confidence in this technology, which is central 
to realizing the future benefits of self-driving vehicles.
    I thank the witnesses for taking the time to inform us and 
I look forward to a thoughtful and engaging discussion.

    Mr. Harper. Thank you, Chairman Latta, for calling this 
hearing today to build on the subcommittee's previous efforts 
to examine and better understand the world of self-driving 
cars.
    As many of you have noted today, the developments and 
innovation in self-driving cars has the potential to provide 
countless improvements to our transportation system, and 
invaluable safety enhancements that could save thousands of 
lives every year.
    Of particular interest to me is the potential benefits and 
new opportunities that self-driving cars would provide to 
Americans with disabilities, including those with intellectual 
disabilities who are unable to obtain driver's licenses and 
must rely on friends, and relatives, and sometimes uncertain 
modes of public transportation in order to get about their 
daily lives, including running errands, or just getting to a 
job. In the disability world, lack of transportation is widely 
viewed as the top impediment to success at advancement in 
society.
    Self-driving cars could offer the disability community a 
really tremendous opportunity. We're looking forward to hearing 
more about this. With that, I yield back.
    Mr. Latta. The gentleman yields back, and the Chair now 
recognizes the gentlelady from Illinois, the Ranking Member of 
the subcommittee, for 5 minutes for an opening statement.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you so much, Mr. Chairman. This is 
the first hearing of the newly renamed Digital Commerce and 
Consumer Protection subcommittee. For me this has always been 
the Consumer Protection subcommittee, but I'm glad to see that 
the name consumer protection is now an official name where it 
belongs.
    This subcommittee has important work to do on behalf of 
American consumers. We are kicking off the Congress with a 
hearing on auto safety which comes as the number of traffic 
deaths nationwide is increasing. In consumer product safety, we 
need to boost recall effectiveness and prevent safety issues 
before products are sold. Meanwhile, the emergence of new 
technologies poses new challenges for cyber security and 
personal privacy. The work of the subcommittee impacts 
Americans' everyday lives. We need to be watchdogs ensuring 
that innovation occurs to the benefit of American consumers.
    Chairman Latta, I know that we'll be able to work together 
on a bipartisan basis to advance consumer interests over the 
course of the Congress, and I also want to take a brief moment 
to welcome two new Democratic members of our subcommittee, Ben 
Ray Lujan and Debbie Dingell. I also want to welcome back to 
the subcommittee Doris Matsui and Gene Green, and of course our 
members from the last Congress, Joe Kennedy and Tony Cardenas 
and Yvette Clarke. I'm very excited to work with all of you and 
the rest of our subcommittee colleagues.
    Today's hearing continues our discussion of self-driving 
cars where we left off in November. Self-driving cars have the 
potential to greatly reduce the number of accidents caused by 
human error. However, we need adequate testing and oversight to 
insure that human error is not replaced with vehicle error.
    I share auto manufacturers' optimism about the long term 
promise of autonomous vehicles, and today I want to focus on 
how we get there.
    Testing is necessary before we can confidently put 
consumers in self-driving cars, and what is that testing? The 
``just trust us'' approach simply doesn't work for passenger 
vehicles, not after the industry's failure that we've seen from 
Takata airbags, to the VW emissions scandal. The long term 
viability of self-driving cars depends on manufacturers and 
government working cooperatively to share data and promote 
safety.
    As we think about testing, we need to figure out the 
specifics of how many waivers are necessary for test vehicles 
in the coming years, and how specific those waivers should be. 
We need to decide what safety tests or standards are necessary, 
and we need to determine how states and the federal government 
can best work together to insure safe roads.
    I want to apologize that I have to step out for a moment, 
as I told the Chairman. I also have a Budget Committee meeting 
this morning. I hope to be back later to ask questions of our 
witnesses. I want to thank those that I met before this hearing 
for their time and their information, and I want to thank you 
all for being here today.
    I now yield the remaining time to Congresswoman Matsui.
    Ms. Matsui. Thank you very much, Congresswoman Schakowsky, 
for yielding me time.
    Autonomous vehicles have incredible potential to change so 
much more than just cars. This technology gives us a way to 
think about mobility. It has the potential to expand access to 
seniors, Americans with disabilities, and so much many more who 
may not be able to drive today. This technology allows us to 
rethink urban landscapes and public spaces we may no longer 
need for parking spaces. And perhaps most importantly, it 
promises safety benefits for American families.
    All of this innovation will rely upon connectivity, placing 
new demands on our roads and highways, and the spectrum and 
infrastructure that powers wireless communications. We need a 
framework that insures we're building the connective future of 
the 21st century economy. Driverless cars will have an impact 
to both our local economies, communities, and our global 
competitiveness.
    As we consider this new landscape there is an important 
role for state and federal regulators, technology companies, 
and traditional manufacturers, and Congress to play in 
deploying this future.
    I look forward to working with all of you in this exciting 
area, and I yield back the balance of my time.
    Mr. Latta. Thank you very much. The gentlelady yields back. 
And right now, I don't believe the chairman of the Full 
Committee is here, so I will formally pass on the chairman's 
testimony at this time. And the chair would recognize for 5 
minutes the gentleman from New Jersey, the Ranking Member of 
the Full Committee.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. I wanted to start by 
congratulating you on your new Chairmanship of this newly named 
subcommittee, and I'm hopeful that the subcommittee will use 
its mandate to watch out for the little guy. And I'm very 
pleased that the words ``consumer protection'' once again 
appear in the subcommittee's name.
    Today's hearing on self-driving cars is an example of our 
consumer protection oversight obligation. I recently read 
something in Recode that I think can sum up where we are: ``A 
decade ago, self-driving cars were a matter of debate. Today, 
they're an inevitability.''
    And since we know they're coming to the marketplace, I'm 
pleased that instead of talking again about the potential 
benefits achieved in the out years, we will actually get into 
the weeds a bit. And I look forward to hearing about where we 
are today in the testing, what needs to be done to establish 
that these cars are reliable and safe.
    As I said at our self-driving cars hearing in November, we 
need these vehicles to be safe not just when all cars on the 
road are autonomous, but also during the decades of transition 
time when they share the road with human drivers.
    I look forward to hearing how innovators are using testing, 
modeling, analytics, and other tools to demonstrate that these 
vehicles are safe, that they meet the challenges of interacting 
with other common obstacles on our roads, such as bicyclists, 
pedestrians, and wet snow-covered pavement. I also want to hear 
about how they're insuring strong cyber-security and privacy 
protections are in place to defend against hackers.
    Autonomous driving, like so many of the latest technologies 
has been created in this country by hardworking men and women, 
many of whom are immigrants who bring amazing skills to our 
workforce. We are a nation of immigrants, and any efforts to 
put up roadblocks to immigration will also put up roadblocks to 
our efforts to be ahead on the technology curve.
    At the same time, with as many as 47 percent of American 
workers vulnerable to computerization, we need to find ways to 
tap these technologies to help workers find new opportunities 
through education and training.
    So thank you again. I yield the remainder of my time to 
Representative Dingell. Oh, she's not here. Oh, she's right 
here. I'm sorry. How could I miss you with that beautiful 
dress?
    Mrs. Dingell. OK. I'm just going to talk loud. No one's 
ever said I didn't have a big mouth.
    Thank you for yielding, Ranking Member Pallone. There's 
never been a more exciting time to be in the auto industry. 
And, Mr. Chairman, it's an honor to be a member of this 
committee. The Midwest is here. It's technology.
    Mr. Latta. Yes, but Digital Commerce----
    Mrs. Dingell. We're trying to stay at the forefront of 
innovation and technology.
    There's never been a more exciting time to be in the auto 
industry. Automated vehicles are not just something you read 
about in a science fiction novel. In reality, they're already 
here, and helping transform mobility and the transportation of 
people and goods. Transportation is no longer the accurate 
word; mobility is.
    In 2015, 35,092 people died on the road in this country. 
This would be a public health epidemic if it was in any other 
industry. Automated vehicles will help us save lives as many of 
my previous colleagues have noted, that since 94 percent of 
accidents are attributable to human error. It also an issue of 
international competitiveness.
    Automated vehicles will be developed globally whether we 
like it or not. I think it's critical that America be at the 
forefront of innovation and technology by taking the lead in 
developing these potentially lifesaving advances or we'll lose 
our competitive edge in this critical space.
    My home state of Michigan is leading the way in this area. 
I am proud that the American Center for Mobility at Willow Run 
is in the 12th District and will focus on testing, 
verification, and self-certification of automated vehicles, and 
was just designated as an automated vehicle proving ground by 
DOT.
    Michigan in a very bipartisan way, my colleague, Mr. Upton, 
and the Governor, and others are dedicating considerable 
resources to automated vehicles, and I'm committed to helping 
it and the United States remain leaders in this vital area.
    That being said, safety, including cyber security, has to 
be our top priority here. Nobody wants to let unsafe 
technologies on the road, but we also don't want to prevent 
vehicles that improve safety from reaching consumers either.
    I'm looking forward to working with committee and 
stakeholders to strike the right balance between supporting 
innovation and making sure that consumers are safe.
    I yield back the balance of my time.
    Mr. Latta. The gentlelady yields back, and as I mentioned 
when the Chairman of the Full Committee arrives, he'll be 
afforded the opportunity to give his opening statement.
    We now conclude with the members' opening statements. The 
Chair would like to remind members that pursuant to the 
committee rules all members' opening statements will be made 
part of the record.
    We want to thank all of our witnesses for being with us 
today and taking the time to testify before the subcommittee. 
Today's witnesses will have the opportunity to give opening 
statements followed by a round of questions from the members. 
Our witness panel for today's hearing will include Mike 
Ableson, who's the Vice President of Global Strategy of General 
Motors; Mr. Anders Karrberg, the Vice President of Government 
Affairs at Volvo Car Group; Dr. Nidhi Kalra, Senior Information 
Scientist of Rand, and Co-Director at the Center for Decision 
Making under Uncertainty; Mr. Gill Pratt, Executive Technical 
Advisor and CEO at Toyota Research Institute; and Mr. Joseph 
Okpaku, who is the Vice President of Public Policy at Lyft.
    We appreciate you all being here today, and when we begin 
the round of questions, we'll start with Mr. Ableson, and you 
will be recognized for 5 minutes. And we appreciate again you 
being with us today.

  STATEMENTS OF MICHAEL F. ABLESON, VICE PRESIDENT OF GLOBAL 
 STRATEGY, GENERAL MOTORS; ANDERS KARRBERG, VICE PRESIDENT OF 
 GOVERNMENT AFFAIRS, VOLVO CAR GROUP; NIDHI KALRA, CO-DIRECTOR 
  AND SENIOR INFORMATION SCIENTIST, RAND CENTER FOR DECISION 
   MAKING UNDER UNCERTAINTY; GILL PRATT, EXECUTIVE TECHNICAL 
ADVISOR AND CEO, TOYOTA RESEARCH INSTITUTE; JOSEPH OKPAKU, VICE 
                PRESIDENT OF PUBLIC POLICY, LYFT

                STATEMENT OF MICHAEL F. ABLESON

    Mr. Ableson. Thank you, Mr. Chairman.
    Good morning. My name is Mike Ableson. I'm the Vice 
President of Global Mobility Strategy for General Motors. I 
want to thank Chairman Latta, Ranking Member Schakowsky, 
Chairman Walden, and Ranking Member Pallone, subcommittee 
members for inviting me to tell you more about General Motors' 
vision for the coming transformation in mobility, and the 
opportunities that self-driving vehicles hold for the future 
safety of the American public.
    If I could, though, I'd first like to relate a very 
personal story that has struck very close to the heart of 
myself and my General Motors colleagues. This last September, 
one of our colleagues, Steve Kiefer, suffered an incredible 
tragedy. His son was returning to college after spending a 
weekend at home when he was struck and killed by a distracted 
driver. Watching Steve and his family go through this terrible 
avoidable loss has just increased the determination of all 
those that know Steve to make this technology available as soon 
as it's ready so that we can avoid these losses in the future. 
But, unfortunately, Steve is not alone. Ten percent of vehicle 
fatalities and 18 percent of injuries and crashes are due to 
distracted driving, more than 30 percent of fatalities involve 
a drunk driver, and 28 percent of fatalities are speed-related.
    Vehicle crashes continue to be the leading cause of death 
for children and adults ages 4-34. With 94 percent of fatal 
crashes caused by human behavior, there's tremendous potential 
to do much better.
    Self-driving cars won't drive while impaired by drugs or 
alcohol, they won't be distracted by a cell phone, they won't 
drive drowsy or recklessly, and their speed will always be 
appropriate to the conditions at hand.
    For years, auto makers have committed our resources to 
protecting passengers when crashes do happen. Today, through 
the continuing development of this technology, we have the 
opportunity to avoid crashes all together. Not only are we 
committed to building safe and reliable self-driving vehicles, 
we also believe that self-driving vehicles will provide 
tremendous benefits to society in terms of convenience and 
quality of life. Such vehicles will provide unprecedented 
access to transportation to those who need it most, like people 
with disabilities, those in under-served neighborhoods with 
limited access to public transportation and the elderly.
    General Motors is incredibly optimistic about the future of 
mobility. Auto makers are faced with a tremendous opportunity 
to create a new model for personal transportation that changes 
the way society thinks about the automobile, and we are rising 
to the challenge.
    In June of last year, GM began testing self-driving 
Chevrolet Bolt EVs on public roads in Scottsdale, Arizona, the 
very challenging urban center of San Francisco, and in December 
we announced that we would begin testing in Metro Detroit. We 
have more than 50 self-driving vehicles testing in these three 
cities today, with more planned in the near future.
    We also announced that GM will produce the next generation 
of our self-driving test vehicles at our Orion Assembly Plant 
in Michigan. The vehicles produced at Orion will allow us to 
accelerate the testing and validation of this exciting new 
safety technology.
    Expansion of our real world self-driving vehicle testing 
program will allow us to deploy self-driving vehicles within 
carefully defined parameters and boundaries through controlled 
ridesharing projects. The safety of our customers is our 
driving principle. Developing self-driving technology to uphold 
this standard is our top priority.
    Our test vehicles currently have a person behind the wheel 
to monitor and evaluate performance. The safety data gathered 
by these test vehicles will provide statistically significant 
data to prove that our vehicles are ready to operate without a 
human driver.
    Current federal motor vehicle safety standards have served 
the motoring public well for years; however, as technology has 
evolved, standards which take years to develop have lagged 
behind. Current FMVSS do not contemplate vehicles without human 
drivers. Without changes to those regulations, it may be years 
before the promise of today's technology can be realized, and 
in the meantime, thousands of deaths could have been prevented.
    At the same time, we understand that we must be able to 
prove to our customers, our regulators, and the American public 
that our vehicles are safe. NHTSA has already begun a 
collaborative process with stakeholders to facilitate the safe 
testing and deployment of self-driving vehicles. While 
important regulatory work continues, it is imperative that 
manufacturers have the ability to test these vehicles in 
greater numbers to gather the safety data that will be critical 
to inform large-scale deployment of lifesaving self-driving 
vehicles.
    One good way to accomplish this goal is to grant the 
Secretary of Transportation authority to grant specific 
exemptions for highly automated vehicle development. This 
authority would be similar to authority currently provided 
under existing law.
    During this hearing alone, another eight people will have 
died on U.S. roads. Eight more families that have to experience 
the painful loss that our colleague and friend, Steve, did. 
This is far too great of a cost to our nation and our citizens, 
and we are within reach of a solution.
    We look forward to working with the committee to help 
create the right policy framework to bring this lifesaving 
technology to our roads as quickly and as safely as possible. 
While we have more to learn, our self-driving Bolt EVs are 
getting smarter and better each week, and we are anxious for 
the public to be able to experience the technology firsthand.
    Let me very clear. Our priority is and always will be the 
safety of our passengers and fellow road users.
    Thank you for your time today, and I look forward to 
answering any questions the members of the committee might 
have.
    [The prepared statement of Michael F. Ableson follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Thank you very much, Mr. Ableson, for your 
testimony. And the Chair now recognizes for 5 minutes, Mr. 
Karrberg.

                  STATEMENT OF ANDERS KARRBERG

    Mr. Karrberg. Thank you.
    Chairman Latta, Congresswoman Dingell, members of the 
subcommittee, my name is Anders Karrberg, and I'm Vice 
President of Government Affairs at Volvo Cars.
    Volvo came to the U.S. in 1955, and last year we sold 
81,000 cars here. Together with our dealers, we employ about 
10,000 people with 300 direct employees in New Jersey. Next 
year we will open our first American factory in South Carolina. 
This will add up to 4,000 jobs during the years thereafter. Our 
factory will be the first all new American car factory in 10 
years.
     Safety is a founding principle for Volvo Cars. We invented 
the three-point safety belt, we waived the patent so that 
safety belts could save millions of lives. Our vision is that 
no one should be killed or seriously injured in a new Volvo by 
2020. Therefore, we are very excited about the benefits that 
self-driving cars will bring.
    Roads will be safer. It's been said many times but cannot 
be overstated, over 94 percent of all crashes are due to human 
error. Self-driving cars will be important to reduce crashes. 
Also, self-driving cars will free idle time for the driver to 
do something more productive while being in the car.
    Our vision is to every year give back one week of quality 
time to Volvo commuters by 2025. However, going forward there 
are some very important preconditions. Technology must be safe, 
consumers must trust it, and the proper national framework must 
be in place. These preconditions are fundamental when we bring 
this technology to market.
    The first self-driving Volvo will be an XC90 SUV. It will 
be offered to customers in selected cities in the U.S., Europe, 
and China in 2021. The cars will be capable to operate 
unsupervised SAE Level 4 during normal traffic conditions on 
designated commuter roads only. Our approach is not to provide 
unsupervised driving anywhere any time. Instead, we start with 
less complicated conditions wher e consumer benefits are the 
highest. Thereafter, step by step we open up for more complex 
traffic as technology matures.
     When we develop these cars we take a comprehensive 
approach. Groundwork engineering is based on our extensive 
experience from developing active safety and driver support 
systems. We design systems that are critical for safety with 
redundancies. We perform virtual testing based on data from 
historical crashes. We will start behavioral testing with up to 
100 real customers on real roads this year in Sweden. We plan 
to extend those to London and China, and we cooperate with Uber 
on engineering the hardware.
    Our intention is to test ourselves also in the U.S., but 
the patchwork of state regulations is a concern. In just the 
last two months, at least 50 new bills have been introduced in 
20 states. This started to become a problem already in 2015 
when we publicly called for federal guidelines. Last year we 
got them, the Federal Automated Vehicle Policy, a very positive 
initiative even if it needs several improvements. So what could 
Congress do?
    First, to accelerate traffic safety improvements, press 
avoidance technologies should be rated in NCAP. The U.S. is 
woefully behind other major markets having already done this. 
Active safety systems are building blocks of self-driving cars. 
They take partial control when cars risk a crash, and would 
help build consumer confidence in unsupervised driving.
    Second, Congress should encourage NHTSA to update the FAVP 
with an explicit request that the states refrain from 
legislating and regulating self-driving cars.
    Third, Congress should consider incentives for states to 
adopt the model state policy in the FAVP, as is. A patchwork 
will delay making roads safer in America. It's also a 
competitive disadvantage. This is a race for jobs. I've 
discussed lots of regulations with politicians in the U.S., 
Europe, and China. Six years ago, I put the U.S. in the lead; 
seeing the patchwork, I'm not so sure.
    Thank you for the opportunity to testify. I will take any 
questions later.
    [The prepared statement of Anders Karrberg follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Well, thank you very much for your testimony 
today, and the Chair now recognizes for 5 minutes, Dr. Kalra. 
Thank you.

                    STATEMENT OF NIDHI KALRA

    Dr. Kalra. Thank you. Chairman Latta, Congresswoman 
Dingell, and distinguished members of the subcommittee, thank 
you for the opportunity to testify today on the safety and 
testing of autonomous vehicles.
    For those who may not know, RAND is a nonprofit, 
nonpartisan research institution committed to improving public 
policy through objective research and analysis. And in the 
interest of full disclosure, my spouse is the co-founder of a 
Silicon Valley startup working on autonomous vehicles, though 
his work has no bearing on my testimony, or vice versa.
    Now, as you know, traffic crashes pose a public health 
crisis in the United States, and autonomous vehicles have the 
potential to mitigate this crisis. As a society, we want them 
to be as safe as possible, as quickly as possible, but they 
probably won't eliminate all crashes, and they may introduce 
new safety risks, particularly in the near term. So today I'd 
like to describe several challenges that stand in our way of 
realizing the safety benefits and mitigating the safety risks, 
and then I'll propose some solutions.
    The first challenge is that there isn't yet a practical way 
to prove that autonomous vehicles are safe before they're 
allowed on the road for consumer use. The second challenge is 
that there is no consensus about how safe they should be before 
they're allowed on the roads, so together this means we neither 
know what tests autonomous vehicles should have to take, nor 
what should constitute a passing grade.
    Now resolving this is urgent because real world driving 
experience is crucial for improving autonomous vehicle safety, 
but this presents a third risk. Learning in real world settings 
presents risks to early adopters and other road users from 
which late adopters would benefit. It's like allowing teenaged 
drivers on the road; they may not be safe drivers yet, but they 
need good driving experience to become safe drivers. In the 
meantime, they pose risks to themselves and to others, which we 
try to limit with age restrictions, and permit restrictions. We 
may need similar policies for autonomous vehicles and their 
teenagers.
    Now, there's a clear and essential role for sound policy 
making, and I'll make three recommendations. I first recommend 
that we rapidly develop practical methods of testing their 
safety. These methods can be developed by industry, researchers 
and academics, federal regulators, but wherever they come from 
they need to be vetted, validated rigorously, objectively, and 
independently.
    Now, it's not enough for testing methods to exist. Second, 
I recommend building them into a flexible, adaptive regulatory 
framework that specifies what level of safety performance 
autonomous vehicles need to meet before they're allowed on the 
roads. A lower threshold of safety might be OK for 
demonstration projects designed to improve their performance in 
controlled environments, but a higher threshold of safety might 
be warranted for widespread consumer use in uncontrolled 
environments.
    As with teenage drivers, the framework should balance the 
need for real world driving experience with the need to protect 
the public from undue risk. And the framework should be revised 
as the technology evolves. Such a framework would likely fall 
under NHTSA's jurisdiction, but should be developed in 
collaboration with industry, state and local policy makers, and 
the public.
    Now NHTSA has already released federal policies for 
autonomous vehicles, but these don't specify testing methods, 
or performance requirements, or develop such a framework. 
They're also not requirements but guidelines at this time.
    Now, a regulatory framework like the one I'm proposing will 
take time, and in the interim, I thirdly suggest that strategic 
pilot studies and data sharing can help. Pilot studies could 
start with real world testing in controlled conditions, like 
operating vehicles in well maintained areas in favorable 
climates, and then could be expanded as safety is demonstrated.
    Risks can also be lowered by designing and operating 
vehicles so that if a crash does occur, the risks are lower. 
For example, by limiting vehicle speed or insuring that all 
pilot study passengers buckle up.
    As for data sharing, developers already use the experiences 
of a single vehicle in their fleet to improve the performance 
of the entire fleet. This could occur faster if experiences 
could be shared across the industry to improve the entire 
technology.
    Now, there are certainly nontrivial concerns about 
protecting trade secrets, and also about insuring that the 
right data is shared and that it's truly useful, but these 
concerns could be addressed, and they should be addressed so 
that they can be balanced with the need for safe autonomous 
driving.
    So to conclude, we can't predict what the future of this 
technology will be, or what its impact will be on American 
transportation safety, but we can shape that trajectory with 
well-designed policies.
    So I want to thank you for the opportunity to testify 
today. Thank you for allowing me to appear before you, and I 
look forward to your questions.
    [The prepared statement of Nidhi Kalra follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Latta. And thank you very much for your testimony 
today, and the Chair now recognizes for 5 minutes, Dr. Pratt.

                    STATEMENT OF GILL PRATT

    Mr. Pratt. Chairman Latta, Congresswoman Dingell, and 
members of the subcommittee, thank you for the opportunity to 
appear before you today.
    My name is Gil Pratt. I'm the CEO of the Toyota Research 
Institute. Before working for Toyota, I was a Program Manager 
in the area of Robotics are DARPA, which is the U.S. Defense 
Advanced Projects Agency.
    Now, TRI focuses on the development of artificial 
intelligence and related technologies. It was formed in January 
of 2016 with a 5-year, $1 billion commitment from Toyota. TRI 
is located wholly within the United States, with its 
headquarters in Palo Alto, California, and additional teams in 
Ann Arbor, Michigan, and in Cambridge, Massachusetts.
    TRI is intensely focused on the development of autonomous 
vehicles. We're currently pursuing two paths to autonomy, a 
system called ``Guardian'', and a system called ``Chauffeur.'' 
Under Guardian, the autonomous technology operates in the 
background and it's constantly monitoring the environment 
stepping in only when a collision is imminent. Under Chauffeur, 
the technology takes over the driving task from the human 
driver.
    We are currently testing and refining both Guardian and 
Chauffeur. Because they have the potential to save lives, our 
hope is to deploy these systems as soon as possible, but only 
once we know that they can be deployed safely, and responsibly.
    Society tolerates a significant amount of human error on 
our roads. We are all, after all, only human; yet, human beings 
show nearly zero tolerance for injuries or deaths caused by 
flaws in machines. So the question is, how safe is safe enough 
for this autonomous technology to be deployed?
    As we sit here today, it is not clear how this measure will 
be devised or by whom. Before developers can complete testing 
of these systems and deploy the technology, policy makers such 
as yourselves will need to answer this foundational question.
    Policy makers must also keep in mind that testing is a 
necessary means to an end. The goal is to develop a vehicle 
that can save lives and improve the efficiency of our roads. We 
cannot reach that goal unless we are able to test our 
technology in real world environments, including on public 
roads. Testing is what will allow us to determine when our 
technology achieves a sufficient level of performance, and is 
ready for deployment.
    One of the most significant challenges that we face is the 
patchwork of policy initiatives at the state level. Many of the 
other witnesses have referred to the same thing. Under a 
patchwork of inconsistent state laws, autonomous vehicle 
technology may meet performance requirements in one state and 
not another state. Such a situation will impede the ability of 
a developer to test the same system across multiple states, 
slowly the development and deployment to the technology. Policy 
makers should work to promote and advance a single national 
framework with appropriate safeguards.
    We believe that the Federal Automated Vehicle Policy that 
was released by NHTSA was an important step in cementing 
federal leadership in this area. However, we also believe that 
there are several areas that should be addressed before the 
policy is fully implemented. This includes clarifying in the 
FAVP itself that NHTSA does not intend for states to regulate 
vehicle performance, reconsidering the applicability of the 
safety assessment to the testing of autonomous prototype 
vehicles by traditional auto makers, and reassessing the need 
to submit a new assessment for each significant update to a 
prototype. The reason for that last comment is that we develop 
these systems very quickly, and it will create tremendous red 
tape to have to submit that assessment every single time that a 
change is made.
    There has also been growing discussion of the need for data 
sharing. We support the goals of data sharing, but we also 
believe that there's a significant amount of work to be done to 
insure that it does not create paradoxical incentives to avoid 
difficult test conditions, which would actually worsen safety, 
not improve safety. We look forward to working with other 
stakeholders to determine how to share data in the most 
practical and effective manner.
    Before closing, I would like to provide a couple of 
additional observations. First, with regard to testing, the 
truth is that millions of physical test-driven miles are 
necessary but they are probably not sufficient to achieve the 
reliability that we need for autonomous vehicle technology, 
particularly if those test-driven miles are through easy or 
predictable routes. All testing miles are not created equal, 
and developers should be focused on testing scenarios where 
driving is challenging, or even exceedingly difficult. We 
believe that with adequate evidence of validity, computer 
simulation of billions of test miles are needed to accelerate 
and expand the range of testing of these systems, and that 
these simulated miles, if they're valid, should be an 
acceptable equivalent to real world testing.
    Finally, it's important that the federal government begin 
looking beyond testing to deployment of these systems. This 
includes updating the Federal Motor Vehicle Safety Standards to 
address the handful of standards that are inconsistent with, or 
incompatible with autonomous vehicle technology.
    I thank you very much for your time, and look forward to 
working with you to advance this important technology. Most of 
all, I look forward to taking your questions. Thank you.
    [The prepared statement of Gill Pratt follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Thanks very much for your testimony today, and 
the Chair now recognizes Mr. Okpaku for 5 minutes. And thanks 
very much for being here today.

                   STATEMENT OF JOSEPH OKPAKU

    Mr. Okpaku. Thank you, Chairman Latta. And thank you, 
Congresswoman Dingell, and members of the subcommittee.
    My name is Joseph Okpaku, and I am the Vice President of 
Government Relations for Lyft. Thank you, again, for the 
opportunity to testify today on this very important topic.
    Lyft was the first company to establish peer-to-peer on-
demand ride sharing and currently is the fastest growing ride 
share company in the United States. Today, Lyft connects nearly 
18 million people per month with efficient, affordable, and 
safe rides in over 250 communities across the state, across the 
country.
    Lyft was founded with the mission of improving lives by 
offering the world's best transportation, and in less than five 
years we have proven to be a powerful driver of positive change 
with respect to economic empowerment, enhancing the efficiency 
of public transportation, and connecting communities that were 
previously under-served by prior transportation options.
    The proof is in the data. Since our launch in 2012, Lyft 
has worked to reduce traffic and congestion, increase mobility 
options, prevent DUIs, stimulate local economies, and provide 
economic opportunities to our drivers. And this is only the 
beginning.
    Autonomous vehicles hold a tremendous potential to not only 
further improve the quality of life for our users, but also to 
literally save the lives by decreasing the frequency and 
severity of motor vehicle accidents. Lyft's commitment to 
testing and deploying AVs is rooted in the belief that the 
inherent safety benefits of autonomous vehicles should be 
affordable and available to all segments of the public 
regardless of income, geography, or disability.
    Furthermore, Lyft believes that the introduction of AVs via 
a ride sharing network will fundamentally transform cities and 
the way that people move around them. The convergence of ride 
sharing and AVs provides Lyft with the tools to create a 
perfectly efficient transportation network that will greatly 
reduce the need and demand for car ownership and significantly 
expand transportation options, particularly for segments of the 
population that currently have limited access to transportation 
options due to age, infirmity, or disability.
    As vehicle ownership rates decline and consumers continue 
to engage with the Lyft platform, we will see fewer cars on the 
road, less congestion, and increased positive environmental 
impacts. A world with fewer cars provides a tremendous 
opportunity to reorient, re-imagine, and redesign our urban 
fabric. Cities in the not too distant future could be built 
around people instead of cars. They could and should be defined 
by communities and connections, not pavement and parking spots. 
They could and should include common spaces where culture can 
thrive, and where new ideas can be shared in the very places 
where cars previously stood parked and empty.
    Lyft stands at the center of this coming transportation 
revolution as we believe that the transition to an autonomous 
future will not only occur through individually owned cars; 
rather, it will be both more practical and appealing to rely on 
autonomous vehicles when they are part of a ride sharing 
network fleet. To this end, it is our goal to operate a pilot 
in a major city this year that will permit consumers to enjoy 
for the very first time a Lyft in an autonomous vehicle. 
However, there are very serious challenges to be faced in 
binging the full value of autonomous vehicles to market for 
mass consumption, and the greatest potential obstacle is 
constrictive legislation and regulations.
    The worst possible scenario for the growth of autonomous, 
as some of the members of this panel have already stated, is an 
inconsistent and conflicting patchwork of state, local, 
municipal, and county laws that will hamper efforts to bring AV 
technology to the market. This scenario is well on its way to 
becoming reality.
    Since the beginning of the year, over 20 states have filed 
nearly 60 bills to regulate the testing and deployment of AVs; 
and while most of the bills are well-intentioned, it is our 
position that states should not rush to regulate this 
technology.
    It's our view that if a state does choose to take 
legislative or regulatory action with respect to autonomous 
vehicles, such action should be premised on removing 
impediments in current law to the safe testing and deployment 
of such vehicles, and creating a pro-competitive and 
technology-neutral playing field.
    In order to facilitate the continued innovation, testing, 
and development of AVs by all industry participants, I would 
urge Congress to examine two potential avenues for action. The 
first is revising NHTSA's exemption authority to allow for a 
greater number of autonomous vehicles to be allowed on the road 
for testing and deployment purposes. The second is directing 
NHTSA to begin a rulemaking process to update current FMVSS 
standards to accommodate the development, deployment, and 
introduction into commerce of AVs at a commercial scale.
    Lyft looks forward to working with the members of this 
committee to insure that AVs can be tested and deployed safely 
and efficiently in communities all across the country. The 
tremendous potential that AVs offer to save thousands of lives, 
to increase access to transportation for so many, to reduce 
congestion, and to reorient our communities for the better 
around people, not cars, is an achievable near term reality. 
With a collective effort, we can all insure that this potential 
is reached.
    Thank you again for the opportunity to testify today, and 
I'm happy to answer any questions that you might have.
    [The statement of Joseph Okpaku follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. And thank you very much for your testimony 
today. We appreciate it, and that will conclude the opening 
statements from our witnesses. And the Chair now recognizes 
himself for 5 minutes to begin the questioning of our 
witnesses. And again, we appreciate you all for being here.
    Mr. Ableson, I'd like to start my questions with you. Can 
you discuss GM's timeline for deploying self-driving cars? If 
you'd pull that mic right up there.
    MR. Ableson. Yes. We currently have deployed in three 
cities vehicles that are operating at a Level 4 automation with 
drivers in them. We are collecting data on how the vehicles 
operate. When we have convinced ourselves that the vehicles are 
operating properly and are at a level that would inspire 
confidence in the technology, we will then make those vehicles 
available for members of the public to experience still with 
drivers.
    At that point, we will continue to collect data on a wider 
scale, and only when we have collected enough data to convince 
ourselves that we're truly ready to go driverless, will we then 
remove the drivers from the vehicles and let them operate as 
self-driving vehicles.
    Mr. Latta. Follow-up; cyber security is a huge issue out 
there across what we deal with in this subcommittee, and across 
the Congress today. Can you tell me or go into some detail as 
to how you're looking at insuring against cyber threats?
    MR. Ableson. Again, cyber security is an issue that General 
Motors takes very seriously. We have, of course, had the OnStar 
Service for 20 years, and so we are not new to the connected 
vehicle space. But specifically around cyber security, we were 
also the first auto maker to appoint a Chief Product Cyber 
Security Officer, who reports both to the CEO and to the Board 
of Directors. We were also a founding member of the Auto ISAC, 
an industry committee to share best practices and learnings on 
cyber security.
    Jeff Massimilla is our Chief Product Cyber Security 
Officer, and is also the Vice Chairman of the Auto ISAC, so 
it's an area that we've been very active in. We work with 
companies from other industries from the defense industry, the 
aerospace industry to make sure we have the most current 
learnings not just in the auto space, but in industrial spaces 
wherever they are.
    Mr. Latta. Thank you.
    Mr. Pratt, in Toyota's comments for NHTSA on its Federal 
Automated Vehicles Policy, Toyota mentioned that it would be 
deploying automated driving systems in a step-by-step manner as 
the technology matures and becomes available.
    Would you walk us through what that step-by-step process 
looks like, and how long you think it would take for that 
technology to mature to a point where it might be ready to be 
deployed?
    Mr. Pratt. Sure, I'd be glad to.
    First of all, we have a number of automated vehicle 
technologies that are already in our cars today, and these 
include the Toyota Safety Sense system, and the Lexus Safety 
Sense system. In particular, automatic emergency braking is one 
of the types of this Guardian system that I spoke about before 
where the autonomy intervenes when the human is driving in 
order to prevent an accident. So that's already happening now, 
and we believe we're saving many lives as a result of doing so.
    Now, as you desire to have the human being take less and 
less control of driving and have the autonomy take over more 
control, you ascend up the SAE levels that you may know about. 
And our plan is to be self-timed in this regard. We don't have 
a specific date for when we're going to remove the driver from 
the car, very much like GM; but rather, we are going to test 
and to see when the system is safe enough to do so. And, of 
course, this doesn't happen all of the time, it happens at the 
beginning only some of the time in certain areas, certain 
weather, certain traffic conditions at the beginning with human 
beings supervising the autonomy and in the end where you can 
trust it enough so that you don't need a human being.
    So there's no definitive date for those steps, but a step-
by-step process of gradually removing the amount of supervision 
that's necessary by the driver, eventually with the goal that 
no supervision is necessary, but checking each stage that the 
system is safe enough.
    Mr. Latta. Thank you.
    Mr. Karrberg, a large part of Volvo's brand has always been 
about safety. How does this impact what Volvo is doing before 
it puts a self-driving car on the street for testing and 
deployment?
    Mr. Karrberg. Yes, safety is clearly a priority throughout 
the whole development process for these cars. So we're 
targeting 2021 for this, and in order to make the safety to 
come at the right point, we are doing a number of different 
approaches when it comes to engineering.
    First of all, we will engage fully in major part into 
computer simulations. So we have a database of about 40,000 
traffic accidents that has happened in the past in Volvo cars. 
We'll take those, and we'll combine them with data from the 
U.S., data from Germany, so that will be about 50,000 traffic 
accidents we will put into the computer. And we will ask the 
computer how can you avoid this accident when you have AV 
technology? So that is one input when we go forward.
    Moreover, you have to test this in public roads to learn 
about the behavior on how customers really interact with this. 
And so we will step-by-step introduce to these drivers more and 
more advanced technologies, so we will plan to be ready by 
2021.
    Mr. Latta. Thank you very much. My time has expired, and 
the Chair now recognizes the gentleman from New Jersey, the 
Ranking Member of the Full Committee, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    We've heard concern about the period before cars are fully 
autonomous, when there's still a driver, that that driver 
doesn't need to be active all the time. And even if the driver 
is in front of a steering wheel and trying to pay attention, if 
the car is doing most of the work, we know it's hard for the 
driver to stay engaged. And some have suggested that we could 
see an uptick in accidents with vehicles that are relying on 
drivers to re-engage in a split second. So let me start with 
Mr. Karrberg.
    Volvo has said that it will skip Level 3 automation, as I 
just described, and go from Level 2 to Level 4. Can you explain 
that decision, and is it due to the fears that I just 
mentioned?
    Mr. Karrberg. We pretty much agree with you. At Level 3, 
the driver--the car is doing the driving. The car is doing the 
monitoring, but the driver is the fallback. So you could end up 
in situations where the driver has to take back the control; 
that could happen within seconds. So we are concerned about the 
Level 3 stage within SAE and, therefore, we are targeting Level 
4 as the end game.
    Mr. Pallone. OK, thank you.
    And Dr. Kalra, did you want to comment on that?
    Dr. Kalra. I agree. There is evidence to suggest that Level 
3 may show an increase in traffic crashes, and so it is 
defensible and plausible for auto makers to skip Level 3. I 
don't think there's enough evidence to suggest that it should 
be prohibited at this time, but it does pose safety concerns 
that a lot of auto makers are recognizing and trying to avoid.
    Mr. Pallone. All right, thanks.
    Let me go back to Mr. Karrberg. Volvo has said that it will 
take complete liability at Level 4. Can you explain that 
decision?
    Mr. Karrberg. OK. It is really not that strange. Car makers 
should take liability for any system in the car, so we have 
declared that if there's a malfunction to the AV system when 
operating autonomously, we would take the product liability.
    Mr. Pallone. OK. Now, researchers and investigators have 
demonstrated that the threat of a hacker accessing and 
controlling a connected car is real. In these reports after 
vehicles have been accessed remotely, drivers are shown losing 
control of the horn, brakes, steering wheel, windshield wipers, 
and more.
    So I just wanted to ask how real is the threat of vehicle 
hacking, especially in the autonomous context? And do you 
expect the nature of the threat to evolve as the technology 
develops? Well, did you talk about this at all yet? No. If you, 
Dr. Kalra, yes; would you respond to that?
    Dr. Kalra. Sure, I'd be happy to.
    It is a very real threat. Transportation is one of the 
areas that receives a lot of attention from hacking because it 
is a way to disrupt our transportation system, so there's a 
great concern there. And cyber security is not something that 
can be shrink wrapped on top of the vehicle because there's so 
many parts that contribute to the ultimate vehicle that it has 
to be baked in from the ground up. And it's not only hacking 
for fun and profit, but autonomous vehicles provide an avenue 
for terrorism, as well, because there's a way to use these 
vehicles to--the threat is no longer sort of suicide bombers 
that blow themselves up, but now we have vehicles that can 
drive around. So I don't want to overstate the risk at this 
time, but we need to think very broadly about cyber security 
not only as a hacking opportunity, but also as a terrorism 
opportunity.
    Mr. Pallone. All right. Did you want to----
    Mr. Ableson. If I could add a comment.
    Mr. Pallone. Yes, sure.
    Mr. Ableson. I completely agree with the point that because 
of the cyber security threat, as we contemplate self-driving 
vehicles we need to design the vehicles from the ground up with 
that threat in mind. And, certainly, in our case as we deploy 
the self-driving Chevy Bolts, they look like the Bolts that we 
sell to retail customers, but we've gone very deep into the 
systems of the vehicle to make changes appropriate to insure 
the cyber security in those vehicles.
    Mr. Pallone. Sure, go ahead.
    Mr. Pratt. And I wanted to add a little bit to that, too. 
So, Toyota Connected is a subsidiary of our company that's 
primarily focused on this. Zach Hicks is the CEO. Toyota is 
presently the Chair of the Auto ISAC that was described before 
for sharing information about cyber security threats.
    I think it's important to understand that as serious as 
this threat is, there are also mitigations that we can employ. 
And, first of all, is to make sure that the safety technology 
on the car does not depend on the wireless network in order to 
operate. So our philosophy is that all of the safety functions 
have to be self-sufficient on the car itself, and only 
information over the wireless network used to improve the 
efficiency of operation.
    Mr. Pallone. Mr. Karrberg, sure.
    Mr. Karrberg. I just fully agree with the previous 
speakers. I just want to add that the comprehensive approach 
you need to take to cyber security also encompasses suppliers 
and dealers.
    Mr. Pallone. All right. My time is out, so thank you, Mr. 
Chairman.
    Mr. Latta. The gentleman's time has expired, and the Chair 
now recognizes the Vice Chairman of the subcommittee, the 
gentleman from Mississippi, for 5 minutes.
    MR. Harper. Thank you, Mr. Chairman. And thanks to each of 
you for being here. What an exciting topic. I mean, this is 
remarkable now.
    Mr. Ableson, I've got just a not too technical question, 
but let's say you've got your driver out of the self-driving 
car, it is self-driving, and I'm driving along and I come 
across it, and I honk my horn. Will it do any good?
    Mr. Ableson. We haven't reached that point of deciding 
whether--how and whether it would be appropriate for vehicles 
to react, and in what way, to honking a horn, so I'd have to go 
back and ask the technical folks.
    Mr. Harper. Well, that's--there's so many interesting 
scenarios as you go through these----
    Mr. Ableson. There are a lot of scenarios.
    Mr. Harper [continuing]. On what's going to happen, and 
whether or not you--another car with a driver comes across a 
self-driving car without a driver in there, and they realize 
that. It will freak some people out, so how that's going to be 
dealt with will be part of the fun part of this process.
    Mr. Ableson. Absolutely.
    Mr. Harper. For me, this is so exciting on a personal 
level, because my wife and I have a son with special needs. 
He's 27, he works Monday through Friday, but he's completely 
dependent upon us for his transportation, either myself or 
almost always my wife because I'm here, or our daughter, if so 
some reason she's out of town, so the possibilities are so good 
here for people in the disability community, particularly those 
like my son with an intellectual disability, that is great, 
very social individual, but limited in many ways to what he can 
do. So what this opens up for whether it's running errands, 
whether it's going to the grocery store, the bookstore that he 
loves, or getting to and from work. So as you look at that, can 
you elaborate on the work that GM is doing to provide this type 
of transportation, this access in the future? I know you have 
discussed it.
    Mr. Ableson. We have, and I agree with you, it's a very 
exciting opportunity for some of these communities. And while 
we recognize the potential benefits, there's a whole lot more 
work, obviously, that still needs to be done.
    However, inside General Motors, we have a specifically 
designated employee resource group committed, or composed of 
people with various physical challenges, and they're already 
working with our engineering group on the potential for self-
driving vehicles going forward. So we look forward to continue 
to engage, obviously, internally with our own employees, but 
also with external groups on how to realize this potential for 
those communities.
    Mr. Harper. All right, thank you. And thank you for that 
work.
    Dr. Pratt, can you also comment how your company is 
considering the needs of the disability community in the 
development and deployment of self-driving cars?
    Mr. Pratt. Yes, I'd be very glad to.
    In fact, our President, Akio Toyoda, decided to change the 
company's policy on autonomous driving as a result of a meeting 
with a blind person who asked him, ``Can I enjoy the mobility 
of your cars, as well?'' And suddenly the whole company decided 
to change its policy.
    I wanted to add one more part to this thing, too, because 
we have to not forget about aging society. Right now in the 
United States, 13 percent of our population is over age 65. 
Because of the baby boom, in 15 years that fraction will from 
13 percent to 20 percent. And this is an extraordinary thing.
    My sister and I had the experience of having to take away 
the car keys from my father because he was now too elderly to 
drive. That's something I don't think anybody should have to go 
through both, of course, for my father, and also for the 
parent's children. Our goal is to make that not have to happen 
in the future.
    Mr. Harper. That's great. Thank you very much.
    Mr. Karrberg, can you answer that question about what Volvo 
is doing for those with disabilities?
    Mr. Karrberg. We fully recognize the potential for self-
driving cars to bring a happier life to disabled people, and 
blind people, and so on. Every Sunday, I meet my father. He 
just turned 100 years, and he asks me every time, ``When can I 
have this car?''
    For Volvo, initially, we are targeting commuters, commuting 
because that's where we think the biggest benefit for and 
interest from the consumers are.
    Mr. Harper. That's great.
    Mr. Okpaku, tell us about how this works from a ride 
sharing perspective.
    Mr. Okpaku. Sure, and thank you for the question, Vice 
Chairman.
    One of the things that we've been really pleased to see 
with Lyft and with ride sharing generally is the ability to 
provide options for the disabled community, and for the elderly 
community.
    One of the initial challenges, especially with the elderly 
community, was that not everyone had a smartphone or felt 
comfortable using a smartphone, but we've recently adapted that 
process so that you don't even have to have a smartphone to 
request a Lyft. So we've already seen and heard from a lot of 
the disabled community about how much ride sharing has 
increased their quality of life, increased their mobility, same 
thing for the senior population. And in terms of the potential 
to have that same impact with autonomous vehicles, again, the 
role that ride sharing plays is the ability to bring AVs to the 
market at a scale that would really address this issue in a 
broad and sweeping way. So Lyft and ride sharing, we believe, 
do play a very specific role and a very important role in 
insuring that AV technology can be deployed and used by those 
who most critically need it.
    Mr. Harper. Thank you each so much. It's an exciting 
moment, and we look forward to the development.
    I yield back.
    Mr. Latta. The gentleman yields back the balance of his 
time, and the Chair now recognizes for 5 minutes the Ranking 
Member of the subcommittee, the gentlelady from Illinois.
    Ms. Schakowsky. So even though we're some time away, I 
think, for fully self-driving cars on the road, but 
manufacturers have developed some very exciting safety 
technologies right now from blind spot detection, to rear seat 
notification. And I want to focus for a few minutes on those 
discrete technologies.
    Last year, 39 children died from heat strokes in cars. 
These are tragic accidents, and I've heard devastating stories 
from parents who will absolutely never be able to forgive 
themselves.
    Last year, Representative Tim Ryan, Peter King, and I 
introduced Hot Cars, a bill to equip new vehicles with rear 
seat notification to warn drivers that a passenger may be left 
behind.
    So, Mr. Ableson, what is GM doing to prevent child heat 
deaths?
    Mr. Ableson. As you said, these are tragic circumstances, 
and General Motors has moved aggressively. We've already 
announced that we're implementing on 2017 and 2018 models a 
rear seat reminder system that's monitoring when a rear door is 
open on the vehicle. Then when the ignition is turned off at 
the end of the journey, chimes sound and a message is put up on 
the instrument cluster reminding the driver to check the rear 
seat. And we think this has been a very effective system to 
implement, and one that I'd say is already in production on 
many models.
    Ms. Schakowsky. Thank you.
    Dr. Pratt and Mr. Karrberg, are your companies working on 
technologies to prevent child heat deaths?
    Mr. Karrberg. Thank you for raising this important issue. 
These are, of course, very tragic accidents. First of all, 
consumer education is very important in this field. However, 
what we have recently introduced as an option in our cars is a 
motion sensor. It cannot sense heartbeats but it can sense if 
an animal or if a child moves. It's a first step to this, and I 
would be happy to provide for the protocol later on exactly how 
efficient these technologies are to protect our children.
    Ms. Schakowsky. Yes. The problem, of course, is that often 
the baby is sleeping, and so there is no movement. Dr. Pratt?
    Mr. Pratt. So I run the research lab, so I don't know the 
particular details of the implementation, but I can speak to 
what we're doing research on. And so we are working on this 
issue and, in particular, we're working on systems that monitor 
the insides of the occupants in a car for any number of things. 
Even if a person is sleeping it turns out that there is 
research technology; again, I don't know when it will be 
fielded, which can amplify the very small motions that happen 
as a result of heartbeat and changes in skin temperature, as 
well. So there are ways that in the future we might do it, but 
I'd be glad to get you more information from the company in 
terms of when we're planning to field such things.
    Ms. Schakowsky. We're going to reintroduce our legislation, 
and I'd really appreciate all the manufacturers to take a look 
at our bill that would first begin with a study, and then move 
into regulation.
    Automatic emergency braking is another important safety 
technology. Dr. Pratt, in your testimony you said that 
automatic emergency braking will be standard in almost every 
Toyota model sold this year. How soon will Toyota get to 100 
percent?
    Mr. Pratt. I'm not exactly sure. I believe that it's a very 
small minority of models, some of which are in very unusual 
sizes, so very large trucks and things like that. So I don't 
know the answer, but I'd be glad to get it to you.
    Ms. Schakowsky. And, Mr. Ableson and Mr. Karrberg, what are 
your companies' timeline for automatic braking?
    Mr. Ableson. So at General Motors, we agreed with the 
voluntary rollout that was proposed last year by NHTSA, and 
we're working aggressively to execute that. I don't know the 
exact date by when it's complete in our company, but I'd be 
happy to get people to our people and send you the details.
    Ms. Schakowsky. Mr. Karrberg?
    Mr. Karrberg. We've had automatic emergency braking 
standard globally since 2013. And on our large platform, the 
new cars coming out there, it is a very involved system that 
brakes for not only vehicles, pedestrians, but also cyclists, 
and large animals day and night.
    Ms. Schakowsky. So I had a couple of other questions about 
various technologies, but I guess the point I really want to 
make is that, obviously, some of these are available, in one 
manufacturer, not available in another manufacturer. Sometimes 
it's optional, sometimes it's standard. It seems to me that it 
would be great if we could harmonize these safety features and 
make sure that if they really are saving lives, that they are 
standard. I'm not saying it always has to be exactly the same 
technology, but the same goal at the end of the day so that we 
do develop these safety features. And I yield back. Thank you.
    Mr. Latta. Thank you. The gentlelady yields back. The Chair 
now recognizes for 5 minutes the gentleman from New Jersey.
     Mr. Lance. Thank you, Mr. Chairman, and good morning to 
the distinguished panel.
    Mr. Karrberg, once automated driving systems or fully self-
driving automobiles are ready for use by the American people, 
how should manufacturers provide instructions and education to 
consumers about the proper use and limitations of these systems 
or vehicles?
    Mr. Karrberg. Yes, that is clearly a priority, and that's 
why we start to introduce these vehicles supervised levels 
already this year to about 100 real customers on real roads to 
learn how they interact with the cars, what supports they need 
in order to fully understand it. And we will design the cars 
accordingly.
    Mr. Lance. Would that require further testing of the 
public? Would I have to go back to the State of New Jersey and 
be tested further in this regard?
    Mr. Karrberg. We will do tests of how people behave in 
different areas, so we'll do tests in Sweden right now. We plan 
to move on to London and China, and hopefully will do it in 
U.S., as well, to learn how different types of drivers interact 
with the cars.
    Mr. Lance. Mr. Ableson, GM?
    Mr. Ableson. I think it's a very important question. And I 
would say, at General Motors we intend to roll out autonomous 
vehicles first in ride sharing fleets. We think when----
    Mr. Lance. In ride sharing, did you say?
    Mr. Ableson. Ride sharing, yes; similar to a Lyft fleet.
    Mr. Lance. Yes.
    Mr. Ableson. One of the advantages is that it gives the 
public the opportunity to experience the technology without 
having to necessarily buy and own an autonomous vehicle. It 
also gives you the opportunity then when you book the ride to 
provide the user the information they need on the autonomous 
vehicle operation.
    Mr. Lance. When do you estimate that this might be in use 
in GM's vehicles?
    Mr. Ableson. So as I said, we're doing testing on public 
roads right now, but to be honest, the exact date is going to 
depend on how quickly the data can be gathered. And we have to 
prove, as I said, to both ourselves and our regulators that 
we're ready before we go driverless.
    Mr. Lance. To the distinguished panel, do you believe that 
these automobiles will be used on all of our roads, or will 
they first be used on limited access highways, the Interstate 
highway system, for example, or other similar roads? Dr. Pratt?
    Mr. Pratt. I'd be glad to take that. First, let me just add 
onto that last question with regard to driver education. I 
think education is absolutely key, and some of the issues are 
having to do with how much trust a driver puts in the system, 
and learning not to either under-trust or over-trust the 
autonomy that's there.
    Whether or not it will need changes to the requirements for 
a license, we don't know yet. We'll still learn, but also keep 
in mind that we need to educate that public in terms of how 
they interact with these cars. Think of a pedestrian choosing 
to cross the road, what should they expect the autonomous 
vehicle is going to do?
    Mr. Lance. Yes.
    Mr. Pratt. So we think that that's very important, as well.
    Mr. Lance. I was taught Driver Ed in gym class in high 
school, but the year I was taught that is a national security 
secret.
    Mr. Ableson. I'd like to address your question----
    Mr. Lance. Yes, Mr. Ableson. I'm sorry.
    Mr. Ableson [continuing]. About will they expand to all 
roads? I believe over time you will see them used on all roads. 
We're starting with the urban environments and speeds are----
    Mr. Lance. New Jersey is the most densely populated state 
in the nation and, obviously, this is of interest to me 
representing New Jersey because of the congestion that exists 
in this most heavily densely populated state in the country.
    Yes, Dr. Pratt.
    Mr. Pratt. So, I grew up in Springfield, New Jersey, so I 
know that.
    Mr. Lance. It's in my congressional district. Darned glad 
to meet you.
    Mr. Pratt. A wonderful place. I think that that is very 
important. It is important, however, to realize that the 
ability of an autonomous car to go anywhere at any time no 
matter what the weather or the traffic, is what we call Level 
5. And we, as an industry, believe it'll be sometime before we 
get to Level 5.
    Believe it or not, there are places in the world that are 
worse in terms of traffic congestion than New Jersey, and so I 
think that we'll hit New Jersey before we handle the whole 
world. But it is going to be in stages with the easier cases 
coming first.
    Mr. Lance. All right, thank you. And before I yield back my 
time, I assume Mr. Karrberg from Sweden, you did not grow up in 
my Congressional district. I yield back 10 seconds, Mr. 
Chairman.
    Mr. Latta. The gentleman yields back the balance of his 
time, and the Chair now recognizes for 5 minutes the gentlelady 
from Michigan.
    Mrs. Dingell. Thank you, Mr. Chairman.
    As I mentioned in my opening statement, it's critical to 
insure that automated vehicles are truly safe before they're 
available to consumers, but we also need to insure that there 
aren't any barriers that would prevent lifesaving technologies 
from bringing benefits to society as a whole. And I want to be 
really clear here. We should never let an unsafe or unproven 
vehicle hit the road, so that our challenge as Congress is how 
to strike the right balance between supporting innovation and 
making sure that consumers are safe.
    So I know all of my colleagues are asking all the questions 
on the other side, so I do want to just get the record here on 
some things. So I have a few questions for all the members of 
the panel since I have limited time, and I would ask you to 
just answer yes or no. Yes, the famous Dingell, yes or no.
    Do you agree that Federal Motor Vehicle Safety Standards 
need to be updated in order to support the deployment of 
automated vehicles? And let's just go down the row.
    Mr. Ableson. Yes, we do.
    Mr. Karrberg. We do.
    Dr. Kalra. Yes.
    Mr. Pratt. Yes.
    Mr. Okpaku. Yes.
    Mrs. Dingell. All right. It's my understanding that a 
rulemaking by NHTSA to update Federal Motor Vehicle Safety 
Standards will take several years. If that rulemaking were to 
commence today, it's likely not to be completed by the time 
many in the industry have announced that you want to deploy 
automated vehicles. Is that correct?
    Mr. Ableson. Yes, that's correct.
    Mr. Karrberg. Yes.
    Dr. Kalra. Yes.
    Mr. Pratt. I'm not sure. And the reason I'm not sure is 
that I would hope that NHTSA, if the need were great enough, 
could speed up its actions. But if they couldn't, the answer is 
yes.
    Mr. Okpaku. Yes.
    Mrs. Dingell. Thank you. Love your faith in government. I 
understand NHTSA has the authority to exempt motor vehicles 
from safety standards based on a number of factors, but this 
exemption authority is limited by law in amount and duration. 
Could expanding this exemption authority provide an interim 
path to automated vehicle deployment during the rulemaking we 
just discussed?
    Mr. Ableson. Yes, absolutely.
    Mr. Karrberg. Yes.
    Dr. Kalra. Maybe. It's more complicated than the number of 
vehicles right now. There's no reason to believe that that 
limit is going to be hit, and equally important is to think 
about on what basis those exemptions would be granted given 
that most of the time it's--when one requests an exemption, 
it's on the argument that the vehicles that are seeking 
exemption are just as safe or safer, and there's no way to show 
that. So that would be an equal concern with the number of 
vehicles.
    Mrs. Dingell. It's an important point.
    Mr. Pratt. We have the same concerns as the previous 
witness.
    Mr. Okpaku. I would say the answer is yes. And very 
quickly, I would say that the development and the expansion of 
the ride sharing industry where in 2012 there were maybe only a 
few thousand rides being completed, and the next year, millions 
of rides, shows the demand for resources like this. So I think 
it's a wholehearted yes.
    Mrs. Dingell. Thank you.
    This question is for all the panelists, but you're allowed 
more than yes or no. We had already drifted that way.
    We've had a good discussion about a few proactive things 
that the federal government should be doing here, but in your 
opinion are there any specific things that Congress should 
avoid doing that would stifle the development of automated 
vehicles?
    Mr. Ableson. Speaking for General Motors, we wouldn't want 
to see the government taking steps to specify a specific 
technology or specific solution. I think as long as we keep in 
mind that the goal is to prove that the vehicles are safer than 
drivers today. I think the NHTSA guidelines published last year 
are a very good step in that direction in that they don't 
specify a technology, but specify what the expectations are 
before vehicles are deployed in a driverless fashion.
    Mrs. Dingell. Mr. Karrberg, you all have a minute and 9 
seconds.
    Mr. Karrberg. Yes, we would not like Congress to engage in 
traditional rulemaking because that would stifle development, 
that would take much longer time because this is an area where 
technology is developing very fast, as you know. Also, I agree 
with the gentleman from General Motors, it's clear that 
technology-neutrality is important. Politicians should not pick 
solutions when it comes to technology. That should be done by 
the industry.
    Dr. Kalra. Technology-neutrality is important, and so is 
developing regulations that are adaptive and flexible, and 
designed to keep up. In terms of what they shouldn't do, I'm 
not specifically sure.
    Mr. Pratt. I would agree with all the witnesses before that 
an evidence-based approach is really the best one where the 
government sets what the criteria are for performance, and that 
that's done at the federal level, but does not dictate what the 
ways are to meet that particular level of performance.
    Mr. Okpaku. I concur with the general statements of the 
rest of the panel that it has to be very concerned about, even 
with the most well-intended law, inadvertently precluding or 
restricting potential innovation to make this technology even 
safer.
    Mrs. Dingell. I'm out of time. Thank you.
    Mr. Latta. The gentlelady's time has expired, and the Chair 
now recognizes the gentleman from Kentucky for 5 minutes.
    Mr. Guthrie. Thank you, Mr. Chairman. Thank everyone for 
being here.
    It's very interesting to me. I kind of follow the 
automobile industry, and I understand, I can conceptually 
figure all this out even with driverless cars when everything 
standards conditions, everybody drives the speed limit, nobody 
blocks the left lane. But you've got to wonder how it's going 
to work if you're going to turn left, and you're out in the 
middle of the intersection, and the oncoming traffic uses up 
all the yellow, or if--maybe this happened to somebody here. 
You're on the Parkway coming from the airport, lined up to get 
on 395 like the good citizen, and somebody comes at the last 
minute and forces themself right in front of you because they 
don't want to wait in line. Nobody here does that, I'm sure.
    But the question is, I guess my question first, Mr. 
Ableson, does a car have to be perfect? Do self-driving cars 
have to be perfect to allow them on the highway? And how do we 
get to the point where they're safe enough, safe enough that we 
allow them on the highway?
    Mr. Ableson. So I think the point is, there's no way to 
prove statistically that something is perfect. We have to agree 
on the metrics by which we're going to use to show that the 
vehicle is better than human drivers and it's, therefore, 
appropriate to start deploying without drivers, to your point.
    I think that's why this testing in real world is so 
important because you'll see those real life conditions that we 
all deal with on a daily basis as human drivers, and we'll make 
sure that the vehicles can react appropriately.
    Mr. Guthrie. And, Mr. Karrberg, if you'd like to comment on 
that; and particularly, what is your view on what level the 
vehicles are safe? For example, a Level 3 car, what about Level 
3 cars?
    Mr. Karrberg. Yes. First, what I'd just like to comment on, 
the traffic conditions you initially described here. That's not 
where we're going initially. Those are complicated traffic 
conditions, so we are targeting commuter roads in the beginning 
because that's where the consumer interest is, and that's where 
the technology will arrive in 2021.
    Sorry, your next question was?
    Mr. Guthrie. Just comment on the Level 3 cars, for example, 
what do you consider safe?
    Mr. Karrberg. Yes, exactly. Now as I stated, at Level 3 the 
car is driving, the car is doing the monitoring; however, the 
driver is still fallback. And the driver may have to be able to 
take back control in very short time. And that is far less safe 
than if you go to a Level 4 car where the Level 4 car should be 
able to put the car into a safe mode, unless the driver takes 
over the control. And should be able to predict the traffic so 
that that can be done in a safe manner.
    Mr. Guthrie. Mr. Okpaku, I guess the nature of your 
business is picking people up and running them around town, so 
it really wouldn't be the commuter--I mean, I know people use 
you, too, on commuter highways. I get that, but what you're 
talking about, Mr. Karrberg, are people commuting into work 
every day and being able to do things, and not be distracted 
because the car is taking care of that issue. But your guys are 
picking people up in hotels and dropping them off at Capitol 
Hill. Those are the kind of things--so how do you see this 
working with driverless cars in that kind of environment?
    Mr. Okpaku. Sure, and thank you for the question.
    So, Lyft is looking at this from the viewpoint of a 
network. One of the things that we have the expertise in is how 
to manage literally thousands of cars that are all transporting 
different people around a particular city, and making sure that 
they're doing so in the most efficient manner. For example, is 
a car that is two blocks away from you but going away going to 
get you quicker than a car that's four blocks away from you but 
headed your direction, things of efficiency of that nature.
    So I think, number one, that's one of the areas of 
expertise that we can bring to the AV revolution, if you will, 
is making sure that it's operating in the most efficient 
manner, and that knowing how all the vehicles can interact with 
each other most efficiently and most safely to get passengers 
where they're going. And if you think about the reductions in 
traffic and the reductions in congestion, I think that a ride 
sharing platform is going to be very instrumental in insuring 
that those benefits are gained.
    Mr. Guthrie. OK, thank you. And, Dr. Pratt, my home state 
company. Would you like to comment on how safe does it have to 
be to be safe?
    Mr. Pratt. Sure. Well, this is a question that we're 
thinking about extremely deeply now, and we feel that there may 
need to be a safety factor multiplying human performance. In 
other words, if an autonomous car is only slightly better than 
the average human driver, that may not be good enough, because 
emotionally we can empathize with a human driver that has an 
accident because that could have happened to us. On the other 
hand, when a machine makes a mistake, our empathy is much less.
    We don't know what the safety factor has to be, and what we 
would like is to work collaboratively with government to try to 
figure out what that answer is, but we worry that it may not be 
one. It may be that the public will not accept, if let's say 
there are 35,000 fatalities a year because of human driving, 
would the public accept 34,999 because of a machine? I think 
the answer might be no, and so we don't know what factor needs 
to be there.
    Mr. Guthrie. All right, thank you. I had some more 
questions. I'm out of time. I yield back 7 seconds.
    Mr. Latta. Thank you. The gentleman yields back the balance 
of his time, and the Chair now recognizes for 5 minutes the 
gentlelady from California.
    Ms. Matsui. Thank you, Mr. Chairman.
    I want to switch a little bit here. Many of you express 
concern with a potential for a patchwork or different state 
standards for autonomous vehicles. As our state often is, 
California has been a leader in trying to develop a framework 
for safe testing and deployment of this technology.
    I do understand the need for laws and regulations to be 
flexible, and do encourage innovation, and California's North 
Star is always innovation. But at the same time, I would be 
concerned about undermining safety and accountability 
standards, which I believe, ultimately, would harm not only the 
driving public, but consumer confidence in your products and 
services.
    I think that we could all agree that we need some rules of 
the road. Can each of you provide your perspective on where 
regulation might be needed at both the state and federal 
levels, starting here?
    Mr. Ableson. I would say at General Motors, we recognize 
that if a patchwork were to develop, especially on the 
technical sides of the issue that would be an issue for the 
industry. However, we've also seen some states pass some very 
thoughtful legislation that supports the development, like 
Michigan did recently.
    With NHTSA, we recognize that both the states and the 
federal government have a role to play going forward, and we 
look forward to working with the governments at all levels on 
rolling out the technology.
    Mr. Karrberg. The way forward we think is really the 
approach that NHTSA now has taken with the Federal Automated 
Vehicle Policy. It's flexible, it's not traditional rulemaking 
which will go very slow. It's something in between. It's not 
perfect, but I think that is the way forward.
    Dr. Kalra. I think federal regulations are needed to set 
both testing methods and what thresholds of safety are needed 
for different levels of deployment of autonomous vehicles. 
Until those are in place, states really are on the forefront of 
balancing the competing needs associated with this technology, 
and so in the interim for those federal regulations, I think it 
would be important for the federal government to provide 
supports to states in developing regulations that aren't 
contradictory, and that pave the way for those federal 
regulations. And the policies that were put forward last year 
take a first step towards that.
    Ms. Matsui. Thank you.
    Mr. Pratt. I agree with some of the members of the panel 
here that really it's the federal government that we believe 
should take the leading role. To be very clear, we totally 
support very rigorous regulation of this, very high standards 
for safety, but we think it's important that there be one 
standard, that it not be a patchwork of different ones.
    I want to give an example of what might go wrong, and it 
actually comes from California, where we have one of our labs. 
And as you may in California, there is a requirement if you're 
doing autonomous car development, that you report to the 
government what your disconnection rate is every time that the 
car has a failure of a certain kind. That's not such a bad 
idea, but that information then becomes publicly available, and 
it creates a perverse incentive, and the incentive is for 
companies to try to make that figure look good because the 
public is watching. And that perverse incentive then causes the 
company to not try to test the difficult cases, but test the 
easy cases to make their score look good.
    We think it's very important that there be deep thought 
about this kind of issue before these rules are made. And we 
think that concentrating that thought in the federal government 
is the best idea.
    Mr. Okpaku. Thank you for the question. And if I can just 
touch really briefly on the patchwork of state legislation 
really quickly. This is something where ride sharing has a 
really unique experience, and a recent experience in this 
because over the last 3 or 4 years we've seen the ride sharing 
industry go from unregulated to wholly regulated. And what we 
were seeing were cities that were next to each other literally 
implementing ordinances that conflicted with each other where a 
vehicle could not pick up a passenger in one city and drop them 
off in the other city. This is a very real situation that we 
were facing for years, and luckily, that's a situation that has 
been resolved. So the concern that the members of this panel 
are expressing with respect to a patchwork of regulations is a 
very real one, and one that we experienced very recently.
    To the heart of your question, I agree with the general 
sentiment of this panel that some of the state bills and 
proposed regulations that we're already seeing, we're seeing 
proposals that would infringe upon the federal government's 
realm and expertise in regulating safety standards. I think 
that's something that's rather dangerous, so if I was going to 
encourage a state to focus on anything, it would be focusing on 
making sure that they were not infringing upon that which is 
the province of the federal government.
    Ms. Matsui. OK. I also understand what you're talking 
about, but I always believe that states should be the test bed 
for innovation to a great degree here. Other than what you 
said, are there any specific concerns about California's 
testing regulations? I live in Sacramento, so I live where the 
governor lives, so it would be kind of nice to have this 
information.
    Mr. Pratt. So from my perspective, the reporting of 
disconnections is the number one issue.
    Ms. Matsui. OK. And I think I've heard that, yes.
    Mr. Ableson. I just wanted to say, I don't agree that 
necessarily the reporting in California would encourage 
companies to do easier testing. We certainly are testing in a 
very difficult environment, making the data public anyway.
    Mr. Karrberg. I'm unaware of the details of California, but 
it is an onerous reporting. It is a very, very comprehensive 
data sharing requirement, and also a costly deposit per car.
    Ms. Matsui. All right, yes. I think I've heard from you, 
and I've run out of time, so thank you very much.
    Mr. Latta. Thank you very much. The gentlelady's time has 
expired. The Chair now recognizes for 5 minutes the gentleman 
from West Virginia.
    Mr. McKinley. Thank you, Mr. Chairman.
    As one of just two licensed engineers in Congress, this is 
an intriguing process that we're going to undergo. I'm 
fascinated with that, but I've got a series of questions. I 
don't know how the time frame we're going to be able to get 
through all of them. But one of them is, since I've learned 
that we were going to have this hearing, I've tried to do a 
little bit more reading about this. And I don't see so far, I 
don't see anything about third party certification for public 
safety, putting public safety first overriding competitive 
pressures.
    Do we have some provision that will require a third party, 
like an IVNV that we have here before this process advances 
much further? Quick answers, if you could.
    Mr. Ableson. I'm not aware that there's any requirement at 
the moment for a third party.
    Mr. McKinley. Second. OK. The second, are there going to be 
global standards, because I've heard mention that Europe and 
China would be--are we going to adopt standards that are 
comparable, and is that underway so that we would be to sell 
American cars in China, AVs over there?
    Mr. Pratt. I would have to say our experience in the 
automotive industry over some time is we don't get global 
standards, that the regulating bodies tend to move in similar 
but differ in the detailed directions.
    Mr. McKinley. One thing I've not heard also is--so I'm a 
little concerned about lack of global standards, is cost. No 
one has mentioned cost up here. What is the projected 
additional cost per vehicle that could be--now I guess you 
could probably answer it well, that depends upon whether you're 
going to go to Level 2, 3, or 4. I understand that, but let's 
just say it's fundamentally, not Level 1 where we are right 
now. What are some cost projections that we're facing, and is 
the overall goal that it will be universal, or will it be an 
option that I, as a buyer, can choose not to have automated? 
Dr. Pratt?
    Mr. Pratt. So, the costs presently are very high, in the 
many thousands, if not tens of thousands of dollars. Part of 
the reason that you're seeing a push to use it in ride share 
systems at the beginning is because there you can amortize the 
cost over a higher utilization of ride share vehicles. However, 
we should keep in mind the incredible rate of decreasing costs 
in the electronics industry particularly with scale. Think 
about your cell phone and the cost of the camera that's inside 
of your cell phone which rivals some of the best cameras that 
you could buy for personal or professional use in the past, 
these now cost pennies to put inside of a cell phone. So we 
don't know the actual numbers, but we are confident the cost 
will decrease very rapidly.
    Mr. McKinley. Do you see, Dr. Pratt, maybe at the end, do 
you see this as something that is going to be universal, or is 
this always going to be an option for your car?
    Mr. Karrberg. It will start as option, and eventually, 10, 
15 years out some functions will be standard.
    Mr. McKinley. It'll be standard. OK.
    The last, because I heard some very interesting arguments, 
very heart wrenching and the like, so is the automobile through 
this autonomous process, would that put us into entitlement 
program, or is this something that's a privilege to be able to 
have a car?
    Mr. Okpaku. If I may, that's one of the reasons why, again, 
Lyft is really intrigued about autonomous vehicle technology, 
because we believe that the only way to insure that it can be 
equitably provided to all segments of society is to have ride 
sharing exist on a ride sharing platform. So that is Lyft's 
interest in this committee hearing today, and the----
    Mr. McKinley. And I think you said that--I think maybe it 
was in your testimony that everyone should have this available 
to them.
    Mr. Okpaku. Exactly.
    Mr. McKinley. That sounds like an entitlement, and my 
concern, of course, with that would be--I'm just, in the very 
short time I have left. I'm just curious; everyone has been 
talking from 30,000 feet. I don't understand, is someone going 
to get in one of these cars? Let's just say they're going to 
Level 4 or Level 5, and they're going to program something and 
take me to Destination X, and this gets you there? You sit back 
and enjoy. Is that really----
    Mr. Ableson. Yes, that's basically the goal. And as we 
said, it will take a long time before it gets everywhere for 
everyone.
    Mr. McKinley. Will you be able to interact with your car? 
You see that visually as you're driving down, you get a phone 
call, or an e-mail, or something, and pick up milk on the way, 
and you have to stop and go get milk. Will you be able to tell 
your machine to pull into that----
    Mr. Ableson. Absolutely. In fact, your machine may know the 
closest place to get milk and suggest a destination to you.
    Mr. McKinley. Fascinating. As I said, I think this is 
intriguing, and as one of the two engineers, I'll be fascinated 
to follow how it proceeds with this, but also getting the cost 
down so that it is affordable for more people and not--yes?
    Mr. Karrberg. Just a comment on cost. Yes, the systems will 
be expensive at start, but come down in cost in the outer 
years. But you should also know that you save cost on fender 
benders, car insurance is likely to go down, also, and fuel 
economy is going to be improved.
    Mr. McKinley. Just in closing, I hope you also would take a 
look at the fuel efficiency, because I know from engineering 
perspective, the people who use cruise control use more gas 
than otherwise. And I would assume that one of the fundamental 
focuses on this will be using a form of cruise control in your 
car and, therefore, I'm questioning whether or not this is 
going to be fuel efficient. It may save lives, but I'm not 
buying yet into the argument of fuel efficiency.
    Mr. Ableson. I would just add, that's one of the reasons 
we're rolling out the technology on electric vehicles. We think 
self-driving technology in electric vehicles make a lot of 
sense.
    Mr. McKinley. And I've gone over time, and I apologize. I 
yield back.
    Mr. Latta. The gentleman's time has expired, and the Chair 
now recognizes the gentleman from Texas for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman, and thank you and the 
Ranking Member for this hearing today because a lot of us have 
heard about self-driving cars. I think my wife might be the one 
because she always complains about my driving. I guess we 
wouldn't have to use ways to find out where we need to get the 
closest milk.
    But ensuring the safety of our constituents is our primary 
concern, and what used to be science fiction is fast 
approaching reality. But for the last 50 years we've seen so 
many different changes. While the technology potential for 
massive benefit to society like any other new groundbreaking 
device, there are risks and precautions that need to be 
considered, and I look forward to talking about this.
    Dr. Kalra, in your testimony you talk about the many 
different approaches to testing this vehicles, and that real 
world driving experience may be one of the most important tools 
for improving autonomous vehicle safety. The sharing of data 
between large groups of vehicles can quickly improve the 
overall safety of the group based on the knowledge accumulated 
by each individual car.
    You mentioned that Tesla calls this fleet learning. Can you 
tell us more about what fleet learning is, and what it can play 
in a role of improving autonomous vehicle safety?
    Dr. Kalra. Sure, thank you for the question.
    The idea of fleet learning is--essentially, what's 
fundamental to autonomous vehicles is that they're improved by 
a process of machine learning, which is where computers are 
designed to learn better ways of behaving or performing without 
being explicitly programmed to do so. And to do that, they 
gather enormous amounts of data and use learning algorithms to 
try to improve their performance. And the more data one can 
feed into machine learning, the better the performance can 
become, and the faster it can improve.
    So companies like Tesla are using this so that every 
experience that an individual vehicle has is being fed back 
into the system and the entire fleet can be upgraded 
continuously. And, in fact, most developers of this technology 
are using that technique.
    And the question is whether that kind of learning is 
limited to an individual developer, or whether there are 
opportunities for learning across developers. I agree with Dr. 
Pratt that that kind of data sharing needs to be thought 
through carefully, but just as the aviation industry has shown 
us, sharing experiences can be an essential tool in improving 
safety quickly.
    Mr. Green. You compare risk of the early autonomous 
vehicles learning from the real world experience of teenage 
drivers. They may not be good drivers yet, for the experience 
and practice they develop into good drivers. Although, I would 
probably submit today that with our distracted driving we could 
all be 15- or 16-year olds trying to drive because we have so 
many options today for distraction. Restrictions on learner's 
permits, and minimum age driver requirements are instituted to 
mitigate the risk of teenage drivers, and you say similar 
requirements for early autonomous vehicles would be needed. 
What do you imagine some of the safety requirements or 
restrictions would look like when it comes to self-driving 
cars?
    Dr. Kalra. Well, it doesn't necessarily need to be 
requirements, but many of the things that my colleagues here 
have described; for example, limiting their driving to commuter 
roads or at low speeds. There are many ways to reduce risk, 
either reducing the likelihood that a crash occurs, which means 
restricting their operation, for example, to good weather, or 
reducing the consequences of a crash. And these can be sort of 
industry-developed ideas and choices, or it may be something 
that down the line is done through regulation to say these are 
the ways in which we're going to start rolling out. That's an 
open question, but essentially reducing risk, even if we can't 
quantify what the risk of autonomous vehicles right now is an 
important step.
    Mr. Green. In your mind, what does the history of the 
airbag regulation teach about safety regulations for autonomous 
vehicles? Obviously, I think we share, you create a bureaucracy 
that may not be effective, and it may take a long time to get 
to correct things.
    Dr. Kalra. If anything, airbag regulations tell us this is 
extremely complicated. It's difficult to get right, but it's 
also very important. Airbags were developed in the 1950s, 
patented. They were first introduced in high end models from 
the '70s, and it wasn't until the '90s that they were first 
required in 1999. That took a long time, and one can argue that 
some mistakes were made along the way because airbags were not 
smart. The airbags that we have today, they were designed to 
protect an unbelted male passenger, and the force of doing so 
would have, for example, killed someone like me. And now we 
know better.
    The difficulty is that that was learned through experience 
and deployment of the technology that was available at the 
time. And so there's this conflict between getting safe 
technology on the road and then learning the ways in which it's 
not safe. And so airbag regulation is instructive in that it 
suggests we should temper our optimism, and it's that we need 
to proceed very carefully and thoughtfully.
    Mr. Green. Mr. Chairman, with my one second left, 
obviously, we have some problems with our airbags, but I yield 
back my time.
    Mr. Latta. Thank you very much. The gentleman's time has 
expired, and the Chair now recognizes the gentleman from 
Florida for 5 minutes. I'll let you get to your chair.
    Mr. Bilirakis. Thank you very much.
    Mr. Pratt, we've heard a lot about vehicle-to-vehicle 
communication in previous hearings on this subject of 
autonomous vehicles. Where does the work you are doing on V2V 
communication fit into the overall blueprint of deploying self-
driving cars?
    Mr. Pratt. Vehicle-to-vehicle, as well as vehicle-to-
infrastructure communication is of critical importance to 
autonomous vehicles. Of course, we drive using our own eyes to 
see other vehicles, but the potential is there for autonomous 
vehicles to use not only the sensors on the vehicle itself, but 
also sensors on neighboring vehicles in order to see the world 
better. And so, for example, if you're going around a corner 
and there's some trees or a building that's blocking a view, 
vehicle-to-vehicle communication can give you the equivalent of 
x-ray vision, because you're seeing not only your view, but 
also the view from other cars, as well.
    It's going to be pretty hard to make a vehicle that is safe 
in all conditions. That's this Level 5 vehicle that we keep 
talking about. And the standards may be very high because, 
again, it's a machine that's going to be running this, not a 
human being, so our ability to empathize and forgive will be 
low. So we have to give ourselves every possible tool in the 
tool chest in order to try to solve this problem, so I think 
that vehicle-to-vehicle, vehicle-to-infrastructure is extremely 
important, and that saving the spectrum for that use is also 
very important.
    Mr. Bilirakis. Thank you very much.
    Mr. Okpaku, forgive me if I mispronounce your name, the 
problem of safety benefits of self-driving cars are 
significant. We've already talked about the potential benefits 
in the disability community, which could apply to the elderly 
community, as well, especially in our community. I represent 
the Tampa Bay area in the State of Florida. There are many 
veterans and elderly individuals that could benefit from this 
technology. Well, maybe they want to get to their medical 
appointment, so I can see a lot of benefits there.
    In Lyft's view, what are some other societal and economic 
benefits we could expect to see from the deployment of self-
driving cars?
    Mr. Okpaku. Thank you for the question.
    We often talk about the benefit that Lyft in its current 
form as a ride sharing platform has financially for drivers, 
but one of the things that I think often gets lost in the 
conversation is how important transportation is for economic 
upward mobility on the passenger side; meaning that one of the 
biggest factors for economic opportunity is access to reliable 
and quick transportation. So we've already seen some of the 
impacts that we've had, we believe, on the customer side just 
by providing safe, and quick, and reliable options to jobs, to 
get to and from work that previously didn't exist. So if you 
buy that concept and you apply it across a grand scale that an 
AV platform can provide, then I think the economic opportunity 
that it confers is really significant, and it can really help a 
lot of people who are in economic need get to and from their 
jobs that they otherwise would take maybe an hour or two to get 
to just because they have to rely on insufficient public 
transportation options, in addition.
    But I would also echo what you've already mentioned in 
terms of the ability for non-emergency medical transportation. 
We've seen ride sharing start to partner with organizations on 
that front already. I think the ability to do that at an even 
greater rate and a more efficient rate expands once you include 
autonomous vehicle technology into the mix.
    Mr. Bilirakis. Very good, thank you.
    Mr. Karrberg, it has been suggested that NHTSA's Federal 
Automated Vehicle Policy, while a welcome action and show 
federal leadership, it may contain guidance that has unintended 
consequences of delaying the development, testing, and 
deployment of self-driving cars in the United States. Can you 
comment on that, and how the ambiguities in the guidance 
document should be resolved?
    Mr. Karrberg. There are a number of issues and questions 
regarding the FAVP. First of all, I have a comment on the 
patchwork, the FAVP does not deter sufficiently from the 
patchwork. Also, requirements on reporting on hardware and 
software changes that you do during the course of the testing, 
that is difficult because in engineering you do iterations all 
the time, and if you report every one of those, that's 
practically impossible. So these reporting requirements should 
be limited to major changes.
    There is also a waiting period for you hand in your change, 
and there's a 4-month waiting period. That's also onerous. It 
also calls for third party certification, preapprovals. We are 
pro self-certification. It's worked for 30 years, and we see no 
reason to change that. And we also think that for this FAVP, 
NHTSA should enhance its expertise, also its staffing to cater 
for and be able to judge on the AV development so that NHTSA 
itself will not be a part of the potential delays.
    Mr. Bilirakis. Thank you very much. Well, I know my time 
has expired, but if Dr. Pratt wanted to say something, I don't 
know, Mr. Chairman, is it permissible?
    Mr. Pratt. So I would make it short. We agree very much 
with what the last witness said.
    Mr. Bilirakis. Thank you. I yield back, Mr. Chairman.
    Mr. Latta. The gentleman yields back. The Chair now 
recognizes the gentlelady from California for 5 minutes.
    Mrs. Walters. Thank you, Mr. Chairman.
    We've talked a lot about the need to prevent a state-by-
state patchwork of laws and regulations for autonomous 
vehicles, which would inevitably slow innovation and stifle 
this important technology. While I appreciate Ms. Matsui's 
concerns about California regulations, I think we need to 
consider the negative impact on the state regulations.
    My entire life, I have seen my state, California, and its 
over-regulation. I saw it up close in my 10 years in the 
California State Legislature, and I've seen thousands of our 
most productive businesses and citizens flee for more friendly 
states. Within these last few months, the trend was extended to 
AV when Uber moved its testing to Arizona, after California 
took action to make the state's regulatory regime less 
hospitable. The ironic thing is that I can think of few states 
that would benefit more from this technology considering its 
promise congestion mitigation and the ability to move products 
inland from the West Coast ports. Even at the federal level, 
NHTSA suggested model state regulations are cited as the cause 
of some states pulling back welcoming regulatory environments 
for AV.
    Mr. Okpaku, can you give me a practical example where a 
state or local law or regulation impacted Lyft's AV testing?
    Mr. Okpaku. Well, thank you very much for the question.
    I can give you examples of where we're concerned about the 
ability of these local legislation and local regulations to 
impact testing. For example, as of right now, in California 
there is only one explicitly allowed location, or there's a 
proposal that would make testing limited to one part of 
California. And if that legislation were to pass, then the 
ability to test AV in different environments and different 
situations would be extremely hampered. So that's one example. 
That bill hasn't passed yet, but it has been introduced, and 
that's cause for concern.
    We're not at the point yet where any of the legislation 
that we're concerned about has actually been enacted, but we've 
seen enough proposed legislation all across the country, 
whether it's in Massachusetts, all the way from Massachusetts, 
California, that does raise that exact concern that if enacted, 
it would unintentionally but definitely inhibit our ability to 
roll out, and test, and deploy.
    Mrs. Walters. OK. Thank you very much. And I yield back the 
balance of my time.
    Mr. Latta. The gentlelady yields back the balance of her 
time. The Chair now recognizes the gentleman from Pennsylvania 
for 5 minutes.
    Mr. Costello. Thank you, Mr. Chairman, and thank you to all 
of you who have testified here.
    I've spent a fair amount of time reading up on this 
subject, and I must commend each of you because I feel that 
your testimony, which I have had the time to read through, 
really does lay out the issues that are in front of us as 
policy makers in a very thoughtful way, so that we can go about 
facilitating this technology with you to the public's benefit. 
And each of you, I think, lay out what the various public 
benefits that inure from this.
    I think each of you also lay out a little bit differently 
but, nevertheless, the central question here as being are we 
erecting, or are there regulatory barriers, or is the 
regulatory framework that's in place facilitative for your 
technology to be tested so that we can expedite increasing 
safety, reducing carbon emissions, et cetera, et cetera?
    My question, my first question which I will just sort of 
lay out to all of you is similar to Mrs. Walters, but a little 
bit differently, and that is with respect to the state 
patchwork, which I think most of us think would head in the 
wrong direction, and mindful that I think preemption occurs 
here, but perhaps the regulatory language maybe is a little too 
opened-ended and enables some states to stick their head in a 
window which they're not allowed to stick their head into that 
window because they should be focused on the drivers, not on 
the vehicle.
    Are you aware of any reciprocity agreements between states 
to facilitate testing or deployment of self-driving cars across 
state lines? That's the first question. I think that's 
important, too, because as some of the testimony has reflected, 
you need to test this technology in a lot of different 
topographical climate, and urban/rural circumstances in order 
to know how effective it could be. So that's my first--and if 
you have not engaged in reciprocity agreements, is it something 
that would be helpful to the development of the technology? Go 
ahead and jump on it first.
    Mr. Pratt. So if I might answer first, we have three sites 
in the United States: one in California, one in Michigan, and 
one in Massachusetts. We do most of our testing Michigan, and 
the reason that we do that is because of the different 
regulatory environments in the three states, and so the answer 
is no in terms of our utilization of any sort of reciprocity.
    Mr. Ableson. We also test in three locations, as I said 
earlier, in San Francisco, Scottsdale, Arizona, and Michigan. 
I'm not aware of any reciprocity arrangement between the 
states. We've worked with the individual states to make sure 
that we have the understanding to allow the testing to go 
forward.
    Mr. Costello. So does that mean it's not been limiting?
    Mr. Ableson. So far we have not had an issue in conducting 
the testing in those three locations.
    Mr. Karrberg. So we are unaware of any reciprocity between 
states, and also it would be, of course, very beneficial to be 
able to test across state lines.
    Mr. Costello. It would be beneficial. I guess that would 
really only come about if you did have a patchwork. If you 
didn't have a patchwork, we wouldn't have to address that.
    Mr. Ableson. I agree with that. It becomes a problem if a 
patchwork does develop.
    Mr. Costello. What can Congress do to facilitate the 
testing and deployment of self-driving cars? And that can be 
directly related to the NHTSA language, or insuring that states 
don't get in the way, it could be related to the data sharing, 
double edge sword, if you will, that I think was part of the 
analysis that some of you laid out, which I find to be very 
compelling. It could be things unrelated to those two issues.
    Mr. Pratt. So I think to begin with, as we spoke before, I 
think that the Federal Government really needs to help the 
states understand that it's not in their self-interest to try 
to make their own rules, and they should leave that to the 
Federal Government.
    The second thing is that the NHTSA guidelines were put out 
as guidelines. They were not put out as rules to be fully 
accepted yet, and there still needs to be some work to improve 
those guidelines. And I think that we spoke before about 
particular areas that we feel could be improved. A lot of this 
has to do with understanding the difference between development 
and deployment.
    During development, it's important that there be a very low 
overhead, low red tape way of making changes. During 
deployment, that's actually where you want things to be more 
official, and it's OK to take more time.
    Mr. Costello. Insuring that we do not erect barriers on the 
development side, I think is the point that you're trying to 
focus on.
    Mr. Pratt. That's exactly right. Exactly, thank you.
    Mr. Costello. My time is up.
    Mr. Latta. Thank you very much. The gentleman yields back, 
and seeing no further witnesses, I'm sorry, members asking to 
question the witnesses.
    Ms. Schakowsky. Would you----
    Mr. Latta. Oh, absolutely. The gentlelady is recognized.
    Ms. Schakowsky. Thank you.
    I think the best way to keep defective vehicles off our 
roads is to prevent the sale of used cars under recall until 
the recall is repaired.
    Mr. Ableson, am I correct that General Motors has committed 
to not selling used vehicles as certified pre-owned when they 
have open recalls?
    Mr. Ableson. All vehicles that we sell through our 
certified pre-owned program have been updated for all 
appropriate recalls.
    Ms. Schakowsky. Mr. Karrberg, is that also true in your 
company?
    Mr. Karrberg. I'm sorry, I could not comment on that. I 
don't know the answer, but I will be happy to submit for----
    Ms. Schakowsky. I'd really like to know that. We've been 
looking at that. And, Dr. Pratt?
    Mr. Pratt. And this is Gil Pratt from Toyota. I, myself, 
don't know since I'm the head of the Research Lab, but I'm glad 
to find out for you.
    Ms. Schakowsky. OK. We certainly want to make sure that 
cars that are sold also often have some sort of statement that 
they've been pre-checked, but really also have open recalls are 
permitted for resale. So I'd like to hear from that.
    Thank you very much, Mr. Chairman, and witnesses.
    Mr. Latta. Thank you very much. And, again, seeing no 
further members asking----
    Mrs. Dingell. May I----
    Mr. Latta. Oh, I'm sorry.
    Mrs. Dingell. May I just ask unanimous consent to put 
comments from Ford Motor Company in the record of this hearing?
    Mr. Latta. Thank you very much. We'll submit that with 
unanimous consent.
    Mrs. Dingell. Thank you.
    Mr. Latta. No objection.
    Again, thanks very much for our witnesses today. You can 
see from the folks that were here in the audience today, it's a 
topic that's on everybody's mind, and seeing where the 
technology is going, safety factors, also making sure that the 
folks out there that--citizens seniors, as we heard, or folks 
that might have a disability have more mobility to get around. 
This is a topic that people are looking forward to, especially 
in the next few years, seeing these vehicles on the road.
    And, also, I would like to also submit the following 
letters for the record by unanimous consent: a letter from the 
National Association of Mutual Insurance Companies, a letter 
from the National Council on Disability, a letter from Ford 
Motor Company, a letter from Global Automakers, a letter from 
the Auto Care Association, letter from Epic, a letter from 
Competitive Carriers Association, a letter from Advocates for 
Highway Safety, and a letter from SAFE.
    And pursuant to committee rules, I remind members that they 
have 10 business days to submit additional questions for the 
record, and I ask the witnesses to submit their response within 
10 days, business days upon receipt of the question.
    Seeing no further business to come before the committee, 
this subcommittee is adjourned. And, again, thank you very much 
for our witnesses.
    [Whereupon, at 12:14 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

             Prepared statement of Hon. Michael C. Burgess

    Good morning. I want to thank Chairman Latta and Ranking 
Member Schakowsky for holding this hearing today. When I was 
Chairman of the Commerce, Manufacturing, and Trade Subcommittee 
we dedicated a lot of time to self-driving cars and their 
ability to save lives. It is important that we continue to 
focus on these vehicles as they become more present on our 
roadways.
    In particular, it is important that the commercial use of 
self-driving cars not be hindered by a patchwork of state 
regulations on testing and deployment of these vehicles. 
Throughout my life I have seen the life-saving effects of 
advancements in vehicle technology, from the seat belt, to the 
air bag, to automatic emergency braking. Self-driving vehicles 
are the next step in this trajectory.
    Last year, automobile related fatalities were around 35,000 
and rose for the first time in nearly a decade. In my home 
state of Texas, the number was 3,516. The vast majority of 
those fatalities are still related to human behavior. Already, 
we have heard that fatalities are up again in the first half of 
this year.
    NHTSA's recent Federal Automated Vehicle Policy guidance is 
a good first step, but questions remain about its 
implementation. We must remain vigilant in ensuring government 
does not get in the way of the very innovation that can keep us 
safe.
    I look forward to the witness testimony and continuing the 
discussion on the road to self-driving cars.
                              ----------                              


                 Prepared statement of Hon. Greg Walden

    In the last Congress, this subcommittee examined multiple 
emerging technologies that are creating new opportunities for 
economic growth, job creation, and increased consumer choice in 
today's growing digital economy. From the Internet of Things 
and health apps, to drones and robotics, and the revolutionary 
capabilities of 3-D printing, many of these technologies are 
transforming commerce and creating new opportunities for 
economic prosperity in America for generations to come.
    Without question, one of the most exciting developments in 
21st century commerce is self-driving cars. As traffic 
accidents are on the rise, automated driving systems have the 
potential to transform our transportation system into one that 
is safer and more secure for everyone on the roadways. The 
promise of self-driving cars to save thousands of lives in the 
United States and around the world cannot be understated. And 
we should remember that this technology doesn't have to be 
perfect to significantly improve safety.
    But, the benefits of self-driving cars do not stop at 
safety. This technology can increase transportation access to 
underserved communities, expand labor productivity, improve 
mobility, reduce congestion, and drive new efficiencies and 
cost savings into businesses. In turn, increasing opportunities 
for job creation and investment.
    However, the realization of these benefits starts with 
ensuring that the technology powering self-driving cars is safe 
and ready for consumer adoption. This will require testing. As 
this committee continues to encourage the deployment of this 
life-saving technology, our goal is to foster an environment 
allowing companies the flexibly to test self-driving cars at 
home, so that the innovation, investment, and development of 
these vehicles occurs in the United States. Never has there 
been a more opportune time to lead in the development of this 
technology, as it has a beneficial effect on every individual 
in this country.
    In laying the groundwork for this committee's agenda, it 
does not mean that we issue a blank check for testing and 
deployment anywhere across the country. As with any new 
innovation and developing technology, proper oversight is key. 
Rather, this is a call to create a framework that allows this 
technology to safely develop and a call for innovation to 
flourish without the heavy hand of government. Overly 
prescriptive regulations on self-driving cars will stop the 
very thing we are trying to create: an accident-free 
transportation system that is safe and secure for all roadway 
users. That said, we will be monitoring the industry closely 
and will move quickly if a technology is proven unsafe.
    This hearing today will help us better understand how to 
achieve that goal. It will inform us of manufacturers and 
developers' testing efforts and how to support plans for the 
deployment of self-driving cars. Our witnesses will also help 
us to understand the challenges of testing and deployment and 
how to address those challenges in a way that fosters 
innovation and protects American consumers.
    Safety is critical here. Manufacturers and other entities 
developing self-driving cars have every incentive to get this 
right. There are tremendous economic and societal opportunities 
ahead for consumers if we lay the proper foundation for the 
success and advancement of this technology.
                              ----------                              


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
